    Report No. D-2008-082          April 25, 2008




Summary Report on Potential Antideficiency Act Violations
 Resulting From DoD Purchases Made Through Non-DoD
          Agencies (FY 2004 Through FY 2007)
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.DoDig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ADA                   Antideficiency Act
DOI                   Department of the Interior
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
GSA                   General Services Administration
IG                    Inspector General
MIPR                  Military Interdepartmental Purchase Request
NASA                  National Aeronautics and Space Administration
NIH                   National Institutes of Health
OGC                   Office of the General Counsel
OIG                   Office of Inspector General
O&M                   Operations and Maintenance
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
RDT&E                 Research, Development, Testing, and Evaluation
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
VA                    U.S. Department of Veterans Affairs
                            INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                   April 25, 2008
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER

SUBJECT: Summary Report on Potential Antideficiency Act Violations Resulting From
         DoD Purchases Made Through Non-DoD Agencies (FY 2004 Through
         FY 2007) (Report No. D-2008-082)


        We are providing this report for review and comment. The Under Secretary of
Defense (Comptroller)/ChiefFinancial Officer comments were partially responsive. We
considered management comments on a draft of this report when preparing the final
report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer
reconsider her previous comments and provide revised comments on Recommenda-
tion l.d. by May 27,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@DoDIG.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Terry L. McKinney at (703) 604-9288 (DSN 664-9288) or Ms. Christine M. McIsaac at
(703) 604-9233 (DSN 664-9233). See Appendix G for the report distribution. The team
members are listed inside the back cover.


                            ~f3.~         Richard B. Jolliffe
                                    Assistant Inspector General
                                Acquisition and Contract Management
                Department of Defense Office of Inspector General
Report No. D-2008-082                                                      April 25, 2008
   (Project No. D2007-D000CF-0237.000)

       Summary Report on Potential Antideficiency Act Violations
        Resulting From DoD Purchases Made Through Non-DoD
                 Agencies (FY 2004 Through FY 2007)

                                 Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and financial managers should read this report because it discusses widely
misunderstood DoD guidance on funding purchases made through non-DoD agencies as
well as DoD requirements regarding the reviewing and investigating of potential funding
violations.

Background. This audit was performed in accordance with various public laws. Public
Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal Year
2005,” October 28, 2004, section 802, directs the Inspectors General for the DoD and
General Services Administration to jointly assess whether the policies, procedures, and
internal controls of each General Services Administration Client Support Center were in
place and administered properly. Public Law 109-163, “National Defense Authorization
Act for Fiscal Year 2006,” January 6, 2006, section 811, directs the Inspectors General
for the DoD and each covered non-DoD agency (the Department of the Interior, the
National Aeronautics and Space Administration, and the Department of the Treasury) to
jointly review the administration and effectiveness of policies, procedures, and internal
controls applicable to the procurement of property and services on behalf of the DoD by
such non-Defense agencies. Public Law 109-364, “John Warner National Defense
Authorization Act for Fiscal Year 2007,” section 817, directs the Inspectors General of
the DoD and each covered non-DoD agency (the National Institutes of Health and the
U.S. Department of Veterans Affairs) to jointly review the administration and
effectiveness of policies, procedures, and internal controls applicable to the procurement
of property and services on behalf of the DoD by such non-Defense agencies.

Over the last 4 years, the DoD Office of Inspector General issued 10 reports addressing
FY 2004 through FY 2007 DoD purchases through non-DoD agencies. These reports
address whether the funding policies, procedures, and internal controls of each activity
selected for review were in place, compliant, and properly administered. Overall, we
reviewed six non-DoD agencies purchasing goods and services on behalf of DoD. The
non-DoD agencies processed approximately 91,000 purchases from FY 2004 through
FY 2007, valued at approximately $12.0 billion. At these agencies, we reviewed
658 purchases valued at approximately $1.3 billion.

Results. Our audits revealed that DoD organizations continued to violate the bona fide
needs rule and purpose statute when making purchases through non-DoD agencies
leading to potential Antideficiency Act violations. Reports prepared by the DoD Office
of Inspector General identified 493 potential Antideficiency Act violations, valued at
$518.5 million, relating to the funding of DoD purchases made at or by non-DoD
agencies. Specifically, DoD organizations used prior year funds to purchase current year
requirements, and in some instances, used the wrong types of funds to procure goods and
services. DoD organizations prepared vague and incomplete military interdepartmental
purchase requests when transferring funds to non-DoD agencies. Additionally, DoD
organizations made advance payments to non-DoD agencies for goods and services not
yet received. Finally, DoD did not complete Antideficiency Act investigations as
required by DoD Regulation 7000.14-R, “Financial Management Regulation.” As a
result, lower organizational levels (DoD organizations and non-DoD agencies) are not
fully aware of the correct procedures to fund purchases and they can continue to take
actions that could create potential Antideficiency Act violations. The Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer needed to update
DoD Regulation 7000.14-R, “Financial Management Regulation,” and oversee
Antideficiency Act investigations to ensure they are finalized timely. Also, the DoD
Office of General Counsel, the Under Secretary of Defense for Personnel and Readiness,
and the Under Secretary of Defense (Comptroller)/Chief Financial Officer need to work
with the U.S. Office of Personnel Management to develop the applicable authority to
discipline the organizations, individuals, or both that commit funding problems that could
lead to potential Antideficiency Act violations. (See the Finding section of the report for
the detailed recommendations.)

We identified material internal control weaknesses. The Under Secretary of Defense
(Comptroller)/Chief Financial Office had not issued clear guidance on the bona fide
needs rule and purpose statute when using franchise funds. Most DoD organizations
visited during our audits potentially violated either the bona fide needs rule or purpose
statute, which could lead to Antideficiency Act violations. Implementing the
recommendations in this report should improve financial procedures for using non-DoD
agencies and should correct the material funding weaknesses identified. A copy of this
report will be provided to the senior official responsible for internal controls in the Office
of the Under Secretary of Defense (Comptroller)/Chief Financial Office.

Management Actions Taken During the Audit. The Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer has recognized funding problems
identified by DoD Office of Inspector General reports on interagency acquisitions and
has taken corrective actions to address most issues. In March 2007, the Under Secretary
of Defense (Comptroller)/Chief Financial Officer issued a memorandum to stop advance
payments. In May 2007, the Under Secretary formed a task force to review each bona
fide needs rule violation to develop policies, procedures, and an audit trail to correct and
adjudicate each potential Antideficiency Act violation. Finally, in February 2008, the
Under Secretary updated DoD Regulation 7000.14-R, “Financial Management
Regulation,” to reflect current guidance on purchases made by non-DoD agencies.

Management Comments and Audit Response. The Assistant Deputy Under Secretary
of Defense (Financial Management), responding for the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, concurred with the recommendation to update the
DoD 7000.14-R, “Financial Management Regulation.” The Assistant Deputy also
concurred with the recommendations to determine why formal investigations were not
completed in required time frames and to closely monitor formal investigations.

The Assistant Deputy partially concurred with the recommendation to obtain statutory
authority to discipline individuals or organizations that commit funding problems that
could lead to Antideficiency Act violations. The Assistant Deputy stated that the Under
Secretary of Defense (Comptroller)/Chief Financial Officer cannot require Components
to impose a specific penalty for a particular type of fiscal violation. She stated that the
                                              ii
Under Secretary will request the Under Secretary of Defense for Personnel and Readiness
to issue policy requiring that the Components address misconduct resulting in
Antideficiency Act or bona fide needs violations within regulatory tables or within other
appropriate regulatory issuances. Finally, the Under Secretary will continue ongoing
efforts at strengthening internal controls such as offering training and issuing clear,
consistent policies.

The Assistant Deputy Under Secretary of Defense (Financial Management) comments
did not fully address the recommendation. Most DoD organizations audited committed
potential Antideficiency Act violations, but took corrective actions to address the issues.
However, we continue to believe that a statutory requirement is necessary to discipline
individuals or organizations that repeatedly violated the bona fide needs rule and then
correct the violation if they are caught. Obtaining statutory requirements will encourage
personnel to act in a responsible manner. The Assistant Deputy’s response states that she
will ask the Under Secretary of Defense for Personnel and Readiness to issue policy
instead of ensuring statutory authority exists to discipline personnel who repeatedly
violate the bona fide needs rule. Throughout the audit, she and the DoD Office of
General Counsel maintained that DoD had no authority to discipline employees for bona
fide needs violations. A statutory requirement that allows DoD to discipline individuals
and organizations that repeatedly violate the bona fide needs rule would assist in
strengthening internal controls.

We request that the Under Secretary of Defense (Comptroller)/Chief Financial Officer
reconsider her response and provide comments by May 27, 2008.




                                            iii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                5

Review of Internal Controls                                               6

Finding
     Funding DoD Purchases Made Through Non-DoD Agencies                 7

Appendixes
     A.   Scope and Methodology                                          25
     B.   Prior Coverage                                                 27
     C.   OUSD(C)/CFO Re-Evaluation of 12 GSA Potential ADA Violations   30
     D.   FY 2004 Potential ADA Violations at GSA                        34
     E.   Potential ADA Violations That Occurred Primarily in FY 2005    46
     F.   Potential ADA Violations That Occurred Primarily in FY 2006    69
     G.   Report Distribution                                            87

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer    89
Background
    This audit was performed in accordance with various public laws. Public
    Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal
    Year 2005,” October 28, 2004, section 802, directs the Inspectors General (IG)
    for the DoD and General Services Administration (GSA) to jointly assess whether
    the policies, procedures, and internal controls of each GSA Client Support Center
    were in place and administered properly. The Inspectors General must also
    jointly determine in writing whether each center is compliant with Defense
    procurement requirements, and if it is not, whether the center made significant
    progress in becoming so.

    Public Law 109-163, “National Defense Authorization Act for Fiscal Year 2006,”
    January 6, 2006, section 811, directs the Inspectors General for the DoD and each
    covered non-DoD agency, the Department of the Interior (DOI), the National
    Aeronautics and Space Administration (NASA), and the Department of the
    Treasury (Treasury), to jointly review the administration and effectiveness of
    policies, procedures, and internal controls applicable to the procurement of
    property and services on behalf of the DoD by such non-Defense agencies. The
    Inspectors General must also determine in writing whether such non-Defense
    agencies are compliant with Defense procurement requirements, and if they are
    not, determine whether they have a program or initiative to significantly improve
    their compliance.

    Public Law 109-364, “John Warner National Defense Authorization Act for
    Fiscal Year 2007,” section 817, directs the Inspectors General of the DoD and
    each covered non-DoD agency, the National Institutes of Health (NIH) and the
    U.S. Department of Veterans Administration (VA), to jointly review the
    administration and effectiveness of policies, procedures, and internal controls
    applicable to the procurement of property and services on behalf of the DoD by
    such non-Defense agencies. The Inspectors General must also determine in
    writing whether such non-Defense agencies are compliant with Defense
    procurement requirements, whether they are not compliant but have a program or
    initiative to significantly improve compliance, or whether they are not compliant
    to an extent that the interests of the DoD are at risk in procurements conducted by
    such non-Defense agencies.

    For GSA, DOI, NIH, the Department of the Treasury, and VA, we reviewed the
    DoD procedures for funding purchases made by non-DoD agencies. This
    required following the funds from the time the funds left DoD until the funds
    were paid to the contractors by the non-DoD activity and ultimately reimbursed to
    the activities’ working capital funds. For NASA, we reviewed the funding of
    purchases from NASA contracts that were managed by DoD contracting officers
    and DoD financial personnel (directed purchases).

    Reports Summarized. Over the last 4 years, the DoD Office of Inspector
    General (OIG) issued 10 reports addressing DoD purchases through non-DoD
    agencies. This includes DoD IG Report No. D-2007-042, “Potential
    Antideficiency Act Violations on DoD Purchases Made Through Non-DoD
    Agencies,” issued on January 2, 2007, which summarized funding issues from our

                                         1
FY 2004 and FY 2005 reviews. The report identified 69 potential Antideficiency
Act (ADA) violations during audits at the four agencies: GSA, DOI, NASA, and
the Department of the Treasury. See Appendix E for details about the potential
ADA violations identified in DoD IG Report No. D-2007-042. That report
concluded that although DoD has taken many actions to improve controls over
assisted DoD purchases through non-DoD contracts, DoD organizations did not
initiate and complete preliminary reviews of potential ADA violations in a timely
manner or fully recoup expired funds.

To comply with Public Law 108-375, the DoD OIG issued two reports on DoD
purchases made through GSA. These reports addressed whether the policies,
procedures, and internal controls of each GSA Client Support Center were in
place and administered so that the centers were compliant with Defense
procurement requirements for purchases awarded by GSA. Similarly, Public
Law 109-163 required the DoD OIG to issue two reports on DoD purchases made
through the DOI and the Department of the Treasury and one report on NASA.
Finally, to comply with Public Law 109-364, the DoD OIG issued reports on
purchases made through NIH and VA.

GSA Reports. The DoD IG issued Report No. D-2005-096, “DoD Purchases
Made Through the General Services Administration,” on July 29, 2005. In
FY 2004, DoD sent approximately 24,000 military interdepartmental purchase
requests (MIPR) to GSA, representing more than 85 percent of the business
contracted by the client support centers. The GSA Federal Technology Service
received approximately $8.5 billion for the Network Service Program, the client
support centers, and other miscellaneous programs to purchase information
technology equipment and services. In the fourth quarter of FY 2004, DoD sent
more than $1.0 billion. For DoD IG Report No. D-2005-096, we reviewed
75 purchases funded by 144 MIPRs valued at about $406 million, which occurred
primarily in the fourth quarter of FY 2004. See Appendix D for details about the
38 potential ADA violations identified in DoD IG Report No. D-2005-096.

The DoD IG issued Report No. D-2007-007, “FY 2005 DoD Purchases Made
Through the General Services Administration,” on October 30, 2006. In
FY 2005, DoD sent approximately 20,505 MIPRs to GSA valued at
approximately $3.0 billion. For DoD IG Report No. D-2007-007, we reviewed
56 purchases funded by 223 MIPRs valued at approximately $179 million. We
identified an additional 12 potential ADA violations in our second audit (see
Appendix E for details). Overall, the DoD IG identified 50 potential ADA
violations at GSA.

DOI Reports. The DoD IG issued Report No. D-2007-044, “FY 2005 DoD
Purchases Made Through the Department of the Interior,” on January 16, 2007.
In FY 2005, GovWorks and the Southwest Acquisition Branch contracting
officials awarded approximately $2.5 billion in contracts, with DoD representing
about 64 percent of the work. For DoD IG Report No. D-2007-044, we reviewed
49 contract actions, valued at approximately $277.1 million, awarded by
GovWorks and the Southwest Acquisition Branch. We identified 22 potential
ADA violations (see Appendix E for details).



                                    2
The DoD IG issued Report No. D-2008-66, “FY 2006 and FY 2007 DoD
Purchases Made Through the Department of the Interior” on March 19, 2008.
From October 2006 through February 2007, DOI awarded 14,820 contract actions
totaling $2.6 billion for other governmental activities. Of those contract actions,
GovWorks awarded 6,606 contract actions, valued at $943 million, and the
Southwest Acquisition Branch awarded 1,753 contract actions, valued at
$628 million, on behalf of DoD. Contract actions awarded on behalf of DoD
represented about $1.6 billion (56.4 percent) of the contract actions awarded by
DOI. We reviewed 43 contract actions valued at $47.6 million, awarded from
November 2006 through February 2007 at two DOI contracting activities,
GovWorks and the Southwest Acquisition Branch. We also reviewed
50 additional GovWorks contract obligations, valued at $4.8 million for funding
issues. We identified an additional 336 potential ADA violations in our second
audit (see Appendix F for details). Overall, the DoD IG identified 358 potential
ADA violations at DOI.

Department of the Treasury Reports. The DoD IG issued Report No. D-2007-
032, “FY 2005 DoD Purchases Made Through the Department of the Treasury,”
on December 8, 2006. In FY 2005, DoD sent 9,199 MIPRs to the Department of
the Treasury, valued at approximately $406 million. For DoD IG Report
No. D-2007-032, we reviewed 61 task orders valued at about $37.8 million and
funded with 110 MIPRs. We identified 21 potential ADA violations (see
Appendix E for details).

The DoD IG issued Report No. D-2008-050, “FY 2006 DoD Purchases Made
Through the Department of the Treasury,” on February 11, 2008. In FY 2006,
FedSource issued 26,344 contract actions for all customers representing
$404.1 million. DoD organizations sent 4,533 MIPRs totaling $207.3 million to
FedSource to fund DoD requirements. FedSource issued 12,354 contract actions
on behalf of DoD in FY 2006 totaling $165.6 million. The DoD IG and Treasury
OIG judgmentally selected 57 basic task orders valued at $24.1 million issued
between July 1 and September 30, 2006, from 3 of the 6 FedSource centers.
During this period, FedSource processed 251 task orders valued at $35.6 million.
Including modifications, a total of 330 contract actions were issued by the
3 FedSource centers, totaling approximately $38.5 million. We selected 29
contract actions valued at $11.2 million for review and the Treasury auditors
reviewed 28 contract actions valued at $12.9 million. We identified one
additional ADA violation in our second audit (see Appendix F for details).
Overall, the DoD IG identified 22 potential ADA violations at the Department of
the Treasury.

NASA Report. The DoD IG issued Report No. D-2007-023, “FY 2005 DoD
Purchases Made Through the National Aeronautics and Space Administration,”
on November 13, 2006. NASA established the Scientific and Engineering
Workstation Procurement contracts for Federal agencies to use. The NASA
Government-Wide Acquisition Contracts provide the latest in information
technology products for all Federal agencies. DoD contracting officers were
responsible for all DoD awards made using the NASA Scientific and Engineering
Workstation Procurement contracts. In FY 2005, DoD contracting offices
awarded 6,569 orders, valued at $343.2 million, against NASA contracts. For
DoD IG Report No. D-2007-023, we reviewed 111 orders, valued at

                                     3
approximately $85.9 million. The DoD IG identified 14 potential ADA violations
at NASA (see Appendix E for details).

NIH Report. The DoD IG issued Report No. D-2008-022, “FY 2006 DoD
Purchases Made Through the National Institute of Health,” on November 15,
2007. During FY 2006, DoD placed 1,182 orders valued at $48.5 million on the
Electronic Commodities Store III contracts. We reviewed 98 delivery orders
valued at $33.2 million, which were for the purchase of commercial off-the-shelf
supplies. The NIH Chief Information Officer-Solutions and Partners 2
Innovations contracts provide information technology systems and services.
During FY 2006, DoD sent 96 MIPRs, valued at $90.9 million, for use of the NIH
Chief Information Officer-Solutions and Partners 2 Innovations contracts. Those
MIPRs were related to 28 task orders that have a potential task order ceiling value
of $697.6 million. We reviewed all 28 task orders, which were for the purchase
of services. The DoD IG identified 43 potential ADA violations at NIH (see
Appendix F for details).

VA Report. The DoD IG issued Report No. D-2008-036, “FY 2006 DoD
Purchases Made Through the U.S. Department of Veterans Affairs,” on December
20, 2007. In FY 2006, DoD provided funds to the VA contracting activities to
award 1,718 purchases of goods and services valued at $373.0 million. The
Air Force is the largest DoD user of the VA, accounting for $327.0 million or
88 percent of the DoD purchases awarded through the VA in FY 2006. We
reviewed a total of 58 purchases at DoD and VA activities funded by 124 MIPRs
valued at approximately $128.3 million. Thirty-four of the 58 purchases were
reviewed solely at DoD activities and 9 of the 58 purchases were reviewed solely
at VA activities. We reviewed 15 purchases at both DoD and VA activities. We
reviewed 49 purchases at DoD activities funded by 112 MIPRs valued at
$121.7 million. The DoD IG identified 6 potential ADA violations at VA (see
Appendix F for details).

Potential ADA Violations. The potential ADA violations identified in the
10 reports are summarized in this report. The table below illustrates the
493 potential ADA violations, valued at $518.5 million, identified by the DoD IG
and provides a break out of the potential violations by DoD organizations owning
the funds and the non-DoD agencies awarding contracts for DoD.




                                     4
        Potential ADA Violations by DoD Organization and Non-DoD Agency

                                          Air      Combatant    DoD Agency       Total by
                   Army        Navy      Force     Command       and OSD*        Agency

    GSA               18         12       9            6              5              50
    DOI               35        188      101          11              23            358
    Treasury          4           5       5            5              3              22
    NASA                          1       1            8              4              14
    NIH               20          6       3            4              10             43
    VA                1                   5                                          6

Total by DoD          78        212      124          34              45            493
Organization

*Office of Secretary of Defense (OSD).


       Funding Procedures. DoD uses DoD Form 448, MIPR, to transfer funds within
       the Services and to other Federal agencies. A MIPR is a request for materiel,
       supplies, or services and can be sent as either a direct citation of funds or through
       reimbursement of funds by DoD. Most of the MIPRs reviewed during our audits
       were reimbursable MIPRs to procure services and supplies. MIPRs are usually
       used to transfer funds to other Federal agencies under the authority of the
       Economy Act and in compliance with the DoD Financial Management Regulation
       (FMR), volume 11A, chapter 3, “Economy Act Orders.” The Economy Act
       applies when more specific statutory authority does not exist. Each Economy Act
       order must be supported by a Determination and Finding and funds must be
       deobligated before the end of the period of availability of the appropriation if the
       ordering agency has not provided the goods or services or entered into a contract
       to provide the goods or services. However, MIPRs sending funds to the GSA
       Information Technology Fund, the Department of the Treasury Franchise Fund,
       DOI Franchise Fund, NIH Government Wide Acquisition Contract, and VA
       through the VA-DoD Health Care Resources Sharing Act are reimbursable orders
       and non-Economy Act orders. MIPRs sent to the DOI National Business Center,
       Southwest Acquisition Branch are Economy Act orders. Purchases made through
       NASA contracts were completed by DoD contracting officials and fund
       management was retained in DoD.


Objectives
       Our overall audit objective was to review financial procedures used to fund DoD
       purchases from non-DoD contracts. Specifically, we examined whether fiscal law
       and financial procedures for purchases at DOI, GSA, NIH, the Department of the

                                               5
     Treasury, and VA were followed. We determined whether DoD financial
     managers and contracting personnel were properly managing funds related to
     NASA direct purchases. We also determined whether actions were taken in a
     timely manner to resolve potential ADA violations identified during our previous
     audits. See Appendix A for a discussion of the scope and methodology. See
     Appendix B for prior audit coverage related to the objectives.


Review of Internal Controls
     We identified material internal control weaknesses as defined by DoD Instruction
     5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
     2006. The Under Secretary of Defense (Comptroller)/Chief Financial Office
     (USD[C]/CFO) did not issue clear guidance on the bona fide needs rule and
     purpose statute when using franchise funds. Most DoD organizations visited
     during our audits potentially have violated either the bona fide needs rule or
     purpose statute, which could lead to ADA violations. DoD organizations either
     issued MIPRs with funds that would soon expire and could not legally be placed
     on contract within the year of availability or issued MIPRs citing the wrong
     appropriation. No procedures exist to ensure that DoD organizations use the
     correct funds. Implementing the recommendations in this report should improve
     financial procedures for using non-DoD agencies and should correct the material
     funding weaknesses identified. A copy of this report will be provided to the
     senior official responsible for internal controls in the Office of the Under
     Secretary of Defense (Comptroller)/Chief Financial Office (OUSD[C]/CFO).




                                         6
            Funding DoD Purchases Made Through
            Non-DoD Agencies
            DoD organizations continued to violate the bona fide needs rule and
            purpose statute, which could lead to ADA violations, when making
            purchases through non-DoD agencies. Reports prepared by the DoD OIG
            identified 493 potential ADA violations, valued at $518.5 million, relating
            to the funding of DoD purchases made at or by non-DoD agencies.
            Specifically, DoD organizations used prior year funds to purchase current
            year requirements, and in some instances, used the wrong types of funds
            to procure goods and services. A major contributor to the potential
            violations was that DoD organizations prepared vague and incomplete
            MIPRs when transferring funds to non-DoD agencies. Additionally, DoD
            organizations made advance payments to non-DoD agencies for goods and
            services not yet received. Finally, DoD did not complete ADA
            investigations as required by the DoD FMR. The OUSD(C)/CFO has
            recognized funding problems identified by DoD OIG reports on
            interagency acquisitions and has taken corrective actions to address most
            issues. However, DoD organizations must rely on guidance contained in
            numerous memorandums when purchasing goods and services. This
            occurred because the USD(C)/CFO had not updated the DoD FMR to
            reflect current guidance on purchases made by non-DoD agencies. As a
            result, personnel at the lower organizational levels at DoD organizations
            and non-DoD agencies are not fully aware of the correct procedures to
            fund purchases and continue to take actions that could create potential
            Antideficiency Act violations.


Criteria
     The Antideficiency Act. The ADA is codified in a number of sections of
     title 31 of the United States Code (such as 31 U.S.C. 1341(a), 1342, 1349–1351,
     1511(a), and 1512–1519). The purpose of these statutory provisions, known
     collectively as the ADA, is enforcing the constitutional powers of the purse
     residing in Congress with respect to the purpose, time, and amount of
     expenditures made by the Federal Government. Violations of other laws may
     create violations of the ADA provisions (for example, the “bona fide needs rule,”
     31 U.S.C. 1502(a)).

     The potential ADA violations in DoD IG Report No. D-2005-096 specifically
     refer to 31 U.S.C. 1341(a)(1), which states “an officer or employee of the
     United States Government … may not (A) make or authorize an expenditure or
     obligation exceeding an amount available in an appropriation or fund for the
     expenditure or obligation” or “(B) involve either Government in a contract or
     obligation for the payment of money before an appropriation is made unless
     authorized by law.”

     Section 1350, title 31, United States Code states that “an officer or employee of
     the United States Government … knowingly and willfully violating 1341(a) or

                                          7
1342 of this title shall be fined not more than $5,000, imprisoned for not more
than 2 years, or both.” Section 1351, title 31, United States Code states that “if an
officer or employee of an executive agency … violates section 1341(a) or 1342 of
this title, the head of the agency … shall report immediately to the President and
Congress all relevant facts and a statement of actions taken.”

Advance Payment Policy. Section 3324, title 31, United States Code,
“Advances,” states that advance payments may be made only if authorized by a
specific appropriation or other law, or if the President allows it. Additionally, on
October 4, 2002, the Office of Management and Budget issued Business Rules for
Intergovernmental Transactions. The rules do not allow advance payments for
service orders unless explicitly required by law.

Government Obligations. Section 1501, title 31, United States Code,
“Documentary Evidence Requirement for Government Obligations,” requires a
binding, written agreement between two agencies that will report the “specific
goods to be delivered, real property to be bought or leased, or work or service to
be provided.”

Bona Fide Needs Rule. To use appropriated funds, there must be a bona fide
need for the requirement in the year the appropriations are available for
obligation. Section 1502(a), title 31, United States Code states,
       The balance of an appropriation or fund limited for obligation to a
       definite period is available only for payment of expenses properly
       incurred during the period of availability or to complete contracts
       properly made within that period of availability and obligated
       consistent with section 1501 of this title. However, the appropriation
       or fund is not available for expenditure for a period beyond the period
       otherwise authorized by law.

Bona fide needs violations are correctable by replacing the wrong year funds with
correct year funds, as long as the funds are available. DoD organizations can then
avoid ADA violations and the associated reporting requirements.

Section 2410a, title 10, United States Code states that the Secretary of Defense
may enter into a contract for procurement of severable services for a period that
begins in one fiscal year and ends in the next fiscal year. This section applies to
annual appropriations, such as operations and maintenance (O&M) funds. To
meet bona fide needs rule requirements and 10 U.S.C. 2410a considerations, the
OUSD(C)/CFO has specified that funds for severable services must be obligated
in the year of the appropriation funding the services, and the contract period of
the services cannot exceed 1 year. Also, ordered goods must be received in the
year of the appropriation unless there is a known production or delivery lead time
or unforeseen delays in delivery.

Government Accountability Office Red Book. The Government Accountability
Office (GAO) Red Book, GAO-04-261SP, “Principles of Federal Appropriations
Law, Third Edition, Volume I,” January 2004, states:



                                         8
       An order or contract for the replacement of stock is viewed as meeting
       a bona fide need of the year in which the contract is made as long as it
       is intended to replace stock used in that year, even though the
       replacement items will not be used until the following year.

Purpose Statute. The purpose statute is codified in 31 U.S.C. 1301(a). A
violation of the purpose statute may cause an ADA violation. The statute states
“appropriations shall be applied only to the objects for which the appropriations
were made except as otherwise provided by law.” Violations of the purpose
statute generally occur when purchases are funded with the wrong type of
appropriation. For example, a DoD organization uses O&M funds instead of
military construction to build a new building.

ADA Investigations Guidance. DoD FMR, volume 14, chapter 3, “Preliminary
Reviews of Potential Violations,” November 2006, states that the purpose of a
preliminary review is to gather basic facts and determine whether a violation may
have occurred. When a DoD Component has some evidence that a violation may
have occurred, preliminary checks of the applicable business transaction and
accounting records shall be made to determine whether a potential violation
exists. This should be done in a timely manner (usually within 90 days). A report
on the preliminary review shall be provided for approval to the cognizant
Assistant Secretary of a Military Department for Financial Management, unified
combatant commands, or Defense agency. If a potential violation occurred, then
a formal investigation shall be initiated within 15 business days of the approval of
the report of preliminary reviews.

DoD FMR, volume 14, chapter 4, “Beginning an Investigation,” October 2002,
states that “whenever a preliminary review determines a potential violation has
occurred, a formal investigation is required.” Individuals with no vested interest
in the outcome, and who are capable of conducting a complete, impartial,
unbiased investigation, will conduct the investigation. DoD FMR, volume 14,
chapter 5, “Conducting Investigations,” October 2002, states investigations of
potential ADA violations will be completed within 9 months. The total process
for investigating, including preparation of transmittal letters to the President, the
Director of the Office of Management and Budget, and the leaders of both Houses
of Congress will take no more than 1 year.

The DoD Deputy Chief Financial Officer issued a July 6, 2005, memorandum,
“Administering Discipline in Antideficiency Act (ADA) Violation Cases” (DoD
Deputy Chief Financial Officer July 6, 2005, Memorandum) to improve the
disciplinary process and meet the intent of the ADA. The Military Departments
and the Defense agencies will acknowledge that ADA violations are a misuse of
DoD funds, even though the misuse may not have been knowing or willful and
the Military Department Offices of Financial Management and Comptroller and
the Defense agencies will verify the independence of disciplinary officers.

The USD(C)/CFO issued a June 21, 2007, memorandum, “Inter-Agency Anti-
Deficiency Act (ADA) Preliminary and Formal Investigation Compressed
Schedule Policy” (DoD June 21, 2007, Memorandum). This memorandum
implemented a compressed schedule for processing preliminary and formal
investigation phases of the ADA process only for interagency purchases. For all

                                          9
potential interagency violations as required, the preliminary investigation phase
now must be completed within 30 days, instead of 90 days. If the investigation
warrants a formal investigation, the component will now have 180 days, instead
of 270 days, from notification to complete the formal investigation and provide all
reports and supporting information in accordance with DoD FMR volume 14.

DoD Policy Memorandums. The Acting Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Principal Deputy Under Secretary
of Defense (Comptroller) issued an October 29, 2004, memorandum, “Proper Use
of Non-DoD Contracts” (DoD October 29, 2004, Memorandum) directing the
Military Departments and Defense agencies to establish procedures for reviewing
and approving the use of non-DoD contract vehicles by January 1, 2005. The
program manager or requirements official has primary responsibility to ensure
compliance with the policy. The procedures must include:

   •   evaluating whether using a non-DoD contract is in the best interest of
       DoD;

   •   determining whether the tasks are within the scope of the contract to be
       used;

   •   reviewing funding to ensure that it is used in accordance with
       appropriation limitations; and

   •   providing unique terms, conditions, and requirements to the assisting
       agency for incorporation into the order or contract to comply with all
       applicable DoD-unique requirements.

Within a short period of time, both the Navy and the Air Force issued
memorandums, “Proper Use of Non-DoD Contracts.” Both memorandums
implement guidance and policy for the Acting Under Secretary for Acquisition,
Technology, and Logistics. The Air Force and Navy memorandums were dated
December 6 and December 20, 2004, respectively. The Army issued a
memorandum, “Proper Use of Non-Department of Defense (Non-DoD)
Contracts,” on July 12, 2005, to implement the guidance.

The DoD Deputy Chief Financial Officer issued a March 24, 2005, memorandum,
“Proper Use of Interagency Agreements for Non-Department of Defense
Contracts Under Authorities Other Than the Economy Act” (DoD March 24,
2005, Memorandum). This memorandum, in conjunction with the
OUSD(C)/CFO and Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics DoD October 29, 2004, Memorandum, establishes
DoD policy on assisted acquisitions such as those completed by GSA Federal
Technology Service and to ensure that interagency agreements (under other than
the Economy Act) for non-DoD contracts are used in accordance with existing
laws and DoD policy. To save Government resources, the DoD March 24, 2005,
Memorandum directs the following actions.

   •   For services ordered through an interagency agreement, the DoD
       organization must review funds provided to the servicing agency that have
       expired and recoup those expired funds, unless the request for services

                                    10
       was made during the period of availability of the funds; the order was
       specific, definite, and certain, with specificity similar to contractual
       orders; and severable services were ordered with a period of performance
       that does not exceed 1 year.

   •   For goods ordered through an interagency agreement, DoD organizations
       must recoup expired funds unless the request for goods was made during
       the period of availability of the funds and was for goods that, solely
       because of delivery, production lead time, or unforeseen delays, could not
       be delivered within the period of availability of those funds.

The USD(C)/CFO issued a March 27, 2006, memorandum, “Proper Use of
Interagency Agreements with Non-Department of Defense Entities Under
Authorities Other Than the Economy Act” (DoD March 27, 2006, Memorandum).
This memorandum states that under no circumstances should any existing order
for severable services using O&M funds extend beyond 1 year from the date the
funds were accepted by the servicing agency. This guidance requires DoD
organizations to state on funding documents that cite annual appropriations,
“These funds are available for services for a period not to exceed one year from
the date of obligation and acceptance of this order. All unobligated funds shall be
returned to the ordering activity no later than one year after the acceptance of the
order or upon completion of the order, which ever is earlier.”

The USD(C)/CFO issued an October 16, 2006, memorandum, “Non-Economy
Act Orders” (DoD October 16, 2006, Memorandum). This memorandum
immediately revised financial management policy for procurement of goods and
services from non-DoD agencies. Specifically, this memorandum states that all
orders over $500,000 shall be reviewed by a DoD contracting officer. Purchases
must serve a bona fide need arising or existing in the fiscal year the appropriation
is available for obligations. This memorandum also outlines the proper
deobligation of funds for goods, severable services, and nonseverable services
under non-Economy Act orders.

The DoD October 16, 2006, Memorandum:

   •   states that under certain circumstances, funds provided to a performing
       agency for ordered goods in which the funds period of availability has
       thereafter expired shall be deobligated and returned by the performing
       agency. If the request for goods was made during the period of
       availability of the funds and the item(s) could not be delivered within the
       funds period of availability solely because of delivery, production or
       manufacturing lead time, or unforeseen delays, the funds are not subjected
       to deobligation. Thus, where materials cannot be obtained in the same
       fiscal year in which they are needed and contracted for, provisions for
       delivery in the subsequent fiscal year do not violate the bona fide needs
       rule. This is applicable as long as the time intervening between
       contracting and delivery is not excessive and the procurement is not for
       standard, commercial off-the-shelf-items, readily available from other
       sources. The delivery of goods may not be specified to occur in the year
       subsequent to the funds’ availability.


                                     11
       •   permits severable services to begin in one fiscal year and end in the next if
           the period of performance does not exceed 1 year, as allowed by 10 U.S.C.
           2410a. Thus, the performance of severable services may begin during the
           funds period of availability and may not exceed 1 year. Therefore, annual
           appropriations provided to a performing agency that have expired shall be
           deobligated unless the performance of the services requested began during
           the funds period of availability and the period of performance does not
           exceed 1 year. The annual appropriation from the earlier fiscal year may
           be used to fund the entire cost of the 1-year period of performance.
           Nonseverable services contracts must be funded entirely with
           appropriations available for new obligations at the time the contract is
           awarded. The period of performance may extend across fiscal years.


Potential ADA Violations
    DoD organizations used prior year funds to purchase current year requirements,
    and in some instances, used the wrong types of funds to procure goods and
    services. Reports prepared by the DoD OIG identified 493 potential ADA
    violations relating to the funding of DoD purchases made by non-DoD agencies.
    During audits of FY 2006 and FY 2007 DoD purchases made through DOI, the
    Department of the Treasury, NIH, and VA, 381 purchases that violated the bona
    fide needs rule valued at $83.1 million, 4 purchases that violated the purpose
    statute valued at $1.7 million, and 1 purchase that violated both the bona fide
    needs rule and purpose statute valued at $2.1 million, were identified. These
    386 purchases, valued at $86.9 million, could result in ADA violations. See
    Appendix F for details on each purchase. These purchases are in addition to the
    previously reported 107 potential ADA violations identified at GSA, NASA, the
    first DOI report, and the first Department of the Treasury report (see Appendixes
    D and E). Additionally, the DOI OIG identified 96 potential ADA violations. A
    major contributor to the potential violations was that DoD organizations prepared
    vague and incomplete MIPRs when transferring funds to non-DoD agencies.
    DoD Organizations Responsible for Potential ADA Violations. Within the
    10 DoD IG audit reports we issued, we have identified 19 Army commands,
    25 Navy commands, 20 Air Force commands, 18 Office of the Secretary of
    Defense and Defense agencies, and 9 combatant and unified commands that are
    responsible for bona fide needs rule violations, purpose statute violations, or both.
    Some DoD organizations have committed violations over multiple years and with
    different non-DoD agencies. For example, we identified potential
    ADA violations for the Washington Headquarters Services with the Department
    of the Treasury (reported in FY 2007) and DOI (reported in FY 2008). The
    U.S. Southern Command committed potential ADA violations with GSA
    (reported in FY 2005) and NIH (reported in FY 2008). Public law provides
    guidance and the DoD has developed the process and procedures to penalize
    individuals who are responsible for ADA violations. However, no public law
    exists to support discipline guidelines or procedures for individuals or
    organizations responsible for bona fide needs rule violations that are corrected to
    preclude an ADA violation. The personnel and commands responsible for these
    types of violations have not faced any disciplinary measures. The DoD Office of

                                         12
           General Counsel (OGC), the Under Secretary of Defense Personnel and
           Readiness, and the USD(C)/CFO should work with the U.S. Office of Personnel
           Management to develop the applicable authority to discipline the organizations,
           individuals, or both that commit funding problems that occur as a result of
           violating the bona fide needs rule. Such actions should deter organizations and
           individuals from repeatedly making improper use of funds. However,
           disciplinary actions are not the only tool available to management. Internal
           controls, training, and clear, consistent policies are among the other tools
           available if management wants to avoid future violations.

           MIPR Specificity. Multiple DoD IG reports have addressed DoD organizations
           that did not properly prepare MIPRs. We have repeatedly found that MIPR
           descriptions have broad descriptions of work and are not specific to a purchase.
           On September 25, 2003, the USD(C)/CFO issued a memorandum on “Fiscal
           Principals and Interagency Agreements.” This memorandum stated that “Every
           order under an interagency agreement must be based upon a legitimate, specific,
           and adequately documented requirement … .” Further, the DoD October 16,
           2006, Memorandum states that the MIPR should contain a “firm, clear, specific,
           and complete description of the goods or services ordered. The use of generic
           descriptions is not acceptable … .”

           DoD IG Report No. D-2008-036, on DoD use of VA, references poor MIPR
           preparation on purchases made in FY 2006. DoD IG Report No. D-2007-044, on
           DoD use of DOI, states that GovWorks encouraged customers to write general
           descriptions on MIPRs. The follow-up report on FY 2006 and FY 2007
           purchases stated that 31 of 47 MIPRs lacked specificity (however, 30 of those
           MIPRs were dated prior to October 16, 2006). Both DoD IG reports on the use of
           GSA referenced poor MIPR preparation. DoD IG Report No. D-2007-032, on the
           use of the Department of the Treasury, states that 25 of 110 MIPRs lacked a
           specific detailed description of the requirement. For example, the Walter Reed
           Medical Center submitted 3 MIPRs to acquire the services for 350 contracted
           positions. The MIPRs contained a broad description of the service and were not
           specific as required by 31 U.S.C. 1501. Finally, DoD IG Report No. D-2008-022,
           on NIH purchases, also documents vague descriptions on MIPRs. For example,
           for directed purchases, the TriCare Management Activity sent 19 MIPRs to Space
           and Naval Warfare Systems Center Charleston that were vague, did not provide
           details of items intended to be purchased, or did not reference a statement of
           work. It is important that DoD organizations provide a detailed description of the
           intended purpose on the funding document to ensure a proper basis for the
           interagency purchase. Furthermore, a specific MIPR precludes the non-DoD
           agencies from retaining the funds as a “bank” and using them throughout the year
           as the DoD organization desires.

           Bona Fide Needs Rule Violations. For purchases generally made in FY 2005,
           DoD organizations violated the bona fide needs rule for 60 of 69 purchases. 1 For
           purchases generally made in FY 2006, DoD organizations may have violated the
           bona fide needs rule for 381 of 386 purchases, valued at $83.1 million. For
           example, the Headquarters, U.S. Marine Corps sent MIPR M0008006RQDD036,

1
    Some FY 2005 purchases had both bona fide needs violations and purpose statute violations.

                                                     13
           using Marine Corps FY 2006 O&M funds, to DOI GovWorks on September 25,
           2006. MIPR M0008006RQDD036 was not specific and states that the Marine
           Corps requirement was for “IT [information technology] Hardware, software,
           consumables, and supplies” and did not include a detailed list of items.
           GovWorks awarded the contract against GSA Federal Supply Schedule
           Order 67063 on January 17, 2007. Use of FY 2006 O&M funds to satisfy an
           FY 2007 requirement does not meet the intent of the bona fide needs rule. The
           potential ADA amount was $1,186,279.38.

           In another example, the Office of the Under Secretary of Defense for Acquisition,
           Technology, and Logistics sent MIPR DSIA60228, using FY 2006 Defense O&M
           funds, to DOI GovWorks on September 8, 2006. The Office of the Under
           Secretary of Defense for Acquisition, Technology, and Logistics purchased
           support for multiple new task forces for the Defense Science Board. The scope of
           work for each delivery order was prescribed in detail in a statement of work
           specific to each project. GovWorks awarded the contract for GSA Federal Supply
           Schedule Order 66321 on November 8, 2006. Use of FY 2006 O&M funds to
           satisfy an FY 2007 requirement does not meet the intent of the bona fide needs
           rule. The potential ADA amount was $157,531. The DoD organizations
           corrected the bona fide needs violations for both examples by replacing the
           funding. However, we could not find any disciplinary or other effective actions
           taken or planned to be taken to ensure that numerous violations of fiscal laws
           would not occur in the future.

           Purpose Statute Violations. For purchases generally made in FY 2005, DoD
           organizations used the wrong funds for 18 of 69 purchases. 2 For purchases
           generally made in FY 2006, DoD organizations may have violated the purpose
           statute for four purchases, valued at $1.6 million. For example, the Air Mobility
           Command used NIH to award task order 2513. The Air Mobility Command used
           FY 2006 and FY 2007 O&M funds for this purchase. However, the statement of
           work included design, analysis, and initial pilot effort for the enterprise
           information management system. The statement of work used the word “design”
           54 times, “develop” 24 times, “prototype” 11 times, “pilot” 24 times, “integrate”
           15 times, “test” 39 times, and “evaluate” 5 times. An Air Force official stated
           that the statement of work used the wrong verbiage and the contractor configured
           the commercial off-the-shelf application. The DoD FMR states for research,
           development, test, and evaluation (RDT&E) appropriations: “Commercial-off-the
           shelf (COTS) systems that require engineering design, integration, test, and
           evaluation to achieve the objective performance will be budgeted in RDT&E.”
           Therefore, the Air Mobility Command should have used RDT&E funds for this
           purchase and may have violated the purpose statute.

           Corrective Actions for Bona Fide Needs Rule Violations. The OUSD(C)/CFO
           took corrective actions on the bona fide needs rule violations. The
           OUSD(C)/CFO formed a task force with personnel from the DoD OGC,
           OUSD(C)/CFO, DoD Components, and the Office of the Under Secretary of
           Defense for Acquisition, Technology, and Logistics. The task force led a
           coordinated effort with the OIG OGC and DOI to review each case and develop

2
    Some FY 2005 purchases had both bona fide needs violations and purpose statute violations.

                                                     14
policies, procedures, and audit trails to correct and adjudicate each potential
ADA violation.

        The OUSD(C)/CFO took immediate actions and developed procedures to
ensure compliance and consistency throughout DoD to correct most of the bona
fide needs violations. The task force and OUSD(C)/CFO required confirmation
from the DoD funds manager that any corrections met the legal requirements,
using a three-part test. The test required that the correct year or appropriation
funds were available at the time of the obligation, the day the corrections were
processed, and all time in between. Each funds manager involved in potential
funding violations signed a memorandum for the record certifying this
requirement. DoD organizations then prepared an SF 1081 to replace incorrect
funding. The U.S. Department of the Treasury received the completed SF 1081
and made the accounting adjustments. The OUSD(C)/CFO task force reviewed
640 purchases. In addition to DoD IG-identified potential ADA violations, the
OUSD(C)/CFO reviewed 147 potential ADA violations identified by DOI and
other audits. For this report, we focused on the 493 purchases the DoD IG
identified.

        Of the 493 potential ADA violations, the majority, 336, resulted from
using DOI, as shown in Figure 1. OUSD(C)/CFO determined that 322 of the
336 purchases were violations of the bona fide needs rule and were corrected with
the above process, 1 violation is being formally investigated under the new time
frames, 3 purchases were being reviewed by DoD OGC, 1 purchase was
determined not to be a funding violation, and the final 9 purchases were
reportable ADA violations. The 322 bona fide needs rule violations used wrong
fiscal year funds. The total dollar amount deobligated related to DOI purchases is
$209.5 million and the amount transferred from one fiscal year to another fiscal
year to correct potential ADA violations associated with DOI is $46.3 million.
During 2006 and 2007, the OUSD(C)/CFO reported that DoD recovered
$772 million of the unobligated funds from the non-DoD agencies. Overall, DoD
performed accounting corrections on 446 purchases of 493 purchases the DoD IG
identified. The OUSD(C)/CFO determined that five purchases are pending
accounting corrections. Twenty-one purchases are currently under formal
investigation and 7 purchases are in the review process. Finally, 14 purchases are
reportable ADA violations. The following chart shows potential ADA violations.




                                     15
                               Potential ADA Status Summary
                                                          As of 3/20/08
                                      June ‘07     May –           May –           May –           May ‘07 –
                                                  June ‘07        Sept ‘07        Sept ‘07          Jan ‘08
                                  Total                                        Pending                              No         Reportable
                IA Partner                     Component         OGC                             Formal
  Audits                         Potential                                    Accounting                                          ADA
                  Source                         Review         Review                        Investigation      Violation




                                                                                                                                              Potential ADA Violations
                                  ADAs                                        Corrections                                      Violation***

  FY2005      GSA Audit             38                            1**                                 7          18/12**


              GSA (12)              69                                                                             6/2**           4**

  FY2006      NASA (14)                                                                               2              12
              Treasury (21)                                         1                                 4            9/6**           1**
              DOI (22)                                                                                2           2/18**
              DOI (336)            336                              3                                 1          1/322**           9**
              Treasury (1)           1               1
  FY2007
              NIH (43)              43               1                               5                5           9/23**
              VA (6)                 6                                                                             1/5**
  TOTAL                            493               2              5                5              21              446            14
              Service Audits
  FY 2007                           51                              2                                             44/5**
              (51)
              DOI Audit (96)       96*                            2**                                             1/93**
  Total IA                         640                              8                5              22              589            14




 *96 DOI cases: Army 37,DLA 4, Navy 20, AF 25, DSCA 9, TMA 1                                         Reportable ADA Violations: Navy 14
 22 Formal = DHP 4, Army 3, QoL 2, Air Force 11, DSS 1, CENTCOM 1
 **487 Corrected = DHP 128, Army 66, Air Force 131, Navy 120, DCAA 8, SOCOM 1, AT&L 1, QOL 1, DLA 6, JPRA
 4, STRATCOM 1, DMDC 3, DSCA 9, TMA 1, DIA 5, USACE 2




Potential ADA Violations

Although DoD organizations replaced incorrect funds with the proper funds and
eliminated the bona fide needs rule violations for 486 purchases, DoD
management generally did not take any administrative actions or recourse against
the DoD organizations or personnel that caused the problems. Component
personnel spent a considerable amount of time and effort reviewing and
correcting the numerous bona fide needs violations. The Navy did take punitive
actions for three cases. For the first case, the Navy official responsible was
verbally reprimanded by her commanding officer, relived of nonfinancial
responsibility, and all Comptroller personnel were required to attend training. For
the second case, the Navy issued a Letter of Admonishment and ordered
personnel to take training. The letter will remain on file for a period of 12 months
from the issuance date. For the third case, the Navy issued a letter of caution to
the person responsible and additionally this person is not authorized to approve
funding documents.

ADA Time Frames. On June 21, 2007, the USD(C)/CFO signed a memorandum
to compress the schedule for processing the preliminary and formal investigations
of potential ADA violations for interagency purchases. The target date for
completing formal investigations on these cases was January 31, 2008. The
OUSD(C)/CFO personnel reported that 95 percent of the DOI cases were
reviewed and completed in 30 days. Overall, OUSD(C)/CFO personnel reported

                                                              16
that the DoD task force completed a review of 90 percent of the cases within the
new time frames.

Formal Investigations Guidance. On August 30, 2007, the Principal Deputy,
OUSD(C)/CFO issued memorandums to the Assistant Secretary of the Army
(Financial Management and Comptroller), Assistant Secretary of the Navy
(Financial Management and Comptroller), and the Assistant Secretary of the
Air Force (Financial Management and Comptroller) on interagency
Antideficiency Act violation cases. These memos requested the Military
Departments conduct formal investigations within 180 days, in accordance with
the DoD June 21, 2007, Memorandum.

        Army. The OUSD(C)/CFO memorandum instructed the Army to begin
44 formal investigations. Additionally, the Army Materiel Command formal
investigation into the Headquarters Relocation Project began on May 17, 2006.
Because this investigation began prior to the DoD June 21, 2007, Memorandum,
the FMR time frames apply. Although, the DoD FMR requires formal
investigations to be completed within 1 year, the Army has not performed the
investigation into the Army Materiel Command Headquarters Relocation Project
in accordance with DoD guidance. OUSD(C)/CFO personnel stated that the
Army headquarters formal investigation was completed but not finalized.

       Navy. The OUSD(C)/CFO memorandum instructed the Navy to begin
14 formal investigations the DoD OIG identified as potential ADA violations.
OUSD(C)/CFO personnel stated that the investigations were completed by
January 31, 2008.

        Air Force. The OUSD(C)/CFO memorandum instructed the Air Force to
begin 12 formal investigations. Additionally, the OUSD(C)/CFO memorandum
stated three formal investigations began in May 2006. Because this investigation
began prior to the DoD June 21, 2007, Memorandum, the FMR time frames
apply. The DoD FMR requires formal investigations to be completed within
1 year. The Air Force has not performed the investigations in accordance with
DoD guidance. On February 1, 2008, the Assistant Secretary of the Air Force
(Financial Management and Comptroller) issued a memorandum to the
USD(C)/CFO stating that four cases were being reviewed by the Secretary of the
Air Force General Counsel, two cases were not violations, four cases were in the
preliminary investigation process, and asked for extensions for two cases. The
memorandum states that “The Air Force is committed to resolving these cases
expeditiously within established time frames.”

Additional Violations. The DoD OIG review centered on a fraction of the
purchases made at and by non-DoD agencies. We are confident that the
procedures used at the non-DoD agencies (parking/banking funds, advance
payments) have resulted in numerous additional violations. The OUSD(C)/CFO
required DoD organizations to review purchases identified by the DoD OIG and
make corrections as necessary. However, the OUSD(C)/CFO did not require all
DoD organizations to review the funding for all purchases made by non-DoD
agencies. The USD(C)/CFO has implemented guidance that should improve
using non-DoD agencies for purchases. Therefore, we are not making any
recommendations to review the funding of other interagency purchases, which

                                    17
     may contain violations of the bona fide needs rule or purpose statute potentially
     resulting in ADA violations. Reviewing all purchases would be too voluminous
     and time-consuming for all parties involved.

     Future Acquisitions. The OUSD(C)/CFO states that it is using the experience
     gained in conducting the preliminary and formal investigations to develop new
     and stronger policy and procedure guidance, analyzing process impediments for
     areas of improvement, and incorporating lessons learned in the fiscal and
     acquisition training segments. DoD is also piloting an automated solution with
     the necessary business rules and internal controls for processing
     intragovernmental orders that will help avoid future ADA violations. DoD has
     targeted the Intragovernmental Value Added Network [IVAN] system solution as
     the tool to capture, record, and track intragovernmental transactions from both the
     acquisition and financial perspectives.


Resolution of Prior Potential ADA Violations
     The OUSD(C)/CFO ensured DoD organizations took actions on previously
     identified potential ADA violations and violations of the bona fide needs rule.
     The OUSD(C)/CFO monitored the DoD organization’s 11 formal investigations.
     Additionally, the OUSD(C)/CFO, along with DoD OGC, completed the
     independent assessment on the 12 GSA purchases, as recommended by DoD IG
     Report No. D-2007-42.

     Timely Formal Investigations. DoD organizations determined that 11 purchases
     from DoD IG Report No. D-2005-096, “DoD Purchases Made Through the
     General Services Administration,” July 29, 2005, should have formal
     investigation conducted. Of those 11 purchases, the OUSD(C)/CFO reported on
     December 13, 2007, that 8 purchases were still under formal investigation. The
     eight purchases are: the Army Material Command Headquarters Building
     purchase, Security System Assessment purchase, Joint Conflicts and Tactical
     Simulation System Assessment purchase, Web Management Design purchase,
     Sensor Evaluation purchase, Web Site Development purchase, Active Directory
     Support purchase, and Combat Banners purchase. The investigations were not
     completed within the DoD FMR volume 14, chapter 5 time frame of 1 year. The
     USD(C)/CFO needs to determine why the investigations were not completed and
     ensure they are completed as quickly as possible.

     DoD organizations replaced and certified the funds were always available for
     three purchases, the Individual Training Requirements System purchase, Army-
     Wide Training Tracking System/Army Training and Information Management
     System Development purchase, and the Battle Management Project purchase.

     OUSD(C)/CFO and DoD OGC Actions on Recommendation. In DoD IG
     Report No. D-2007-042, the DoD IG recommended that the USD(C)/CFO
     perform an independent assessment and determine whether formal investigations
     should occur for 12 potential ADA violations. The Deputy Chief Financial
     Officer, OUSD(C)/CFO concurred and stated that his office would work with the
     DoD OGC to determine whether formal investigations should occur for the

                                         18
    potential ADA violations. The OUSD(C)/CFO and DoD OGC completed a
    review of the 12 purchases and determined that no potential ADA violations
    occurred and no formal investigations were necessary. We have concerns with
    the OUSD(C)/CFO and DoD OGC positions on the 12 purchases. We believe
    that they were not consistent in their approach to resolving the potential violations
    and they are inconsistent with Comptroller General Decisions. See Appendix C
    for a discussion of the 12 purchases.

            The OUSD(C)/CFO and DoD OGC did not consistently address purchases
    that are potential ADA violations when essentially the same circumstances
    existed. For some purchases, the DoD organization certified that new funds were
    available and always available for the DoD organizations, and they then replaced
    the funds. For other purchases, the Components stated that a bona fide need
    existed and a legal obligation occurred at the time of order acceptance. For
    example, for the Army-Wide Training Tracking System/Army Training and
    Information Management System Development purchase, OUSD(C)/CFO stated
    that a formal investigation was conducted and the funds were replaced. The Chief
    Information Officer Integration purchase has similar circumstances to the Army-
    Wide Training Tracking System/Army Training and Information Management
    System purchase, yet OUSD(C)/CFO and DoD OGC did not require a formal
    investigation or replace the funds. Handling the purchases inconsistently can only
    confuse DoD personnel who use non-DoD agencies for contracting.

            Additionally, the OUSD(C)/CFO inconsistently applied Comptroller
    General Decision B-308944, “Expired Funds and Interagency Agreements
    between GovWorks and the Department of Defense,” July 17, 2007. Comptroller
    General Decision B-308944 states that MIPRs have to identify specific items or
    services to acquire. The specificity required of interagency agreements should be
    similar to the specificity required of solicitations under the Federal Acquisition
    Regulation. The Comptroller Decision states that the MIPRs did not properly
    obligate funds and the funds were improperly used, which could lead to an ADA
    violation if proper funds are unavailable. For the Chief Information Officer
    Integration Purchase, DoD IG Report No. D-2007-042 states “… no specific
    interagency agreement obligating the funds existed and GSA did not award the
    contract in FY 2004.” The purchase used FY 2004 O&M funds. Therefore, the
    OUSD(C)/CFO should have required the Naval Education and Training
    Command to replace the funds, as the OUSD(C)/CFO had numerous other DoD
    organizations do with potential ADA violations identified in FY 2006 and
    FY 2007.


Advance Payments
    DoD organizations made advance payments to non-DoD agencies. Advance
    payments include the practice of permitting advanced billing without the receipt
    of goods or services. The DoD IG reports on DOI, NIH, and VA all reported on
    use of advance payments.

           DOI. The authority of the DOI franchise fund permits payment for
    contracts and fees in advance of services being acquired. For DOI GovWorks

                                         19
purchases, DoD issues a MIPR identifying the products or services required. A
GovWorks contracting officer reviews the purchase information, and then
prepares a service agreement with the estimated cost. DoD signs the GovWorks
service agreement and after receiving the MIPR acceptance, records a financial
transaction by processing an obligation on its financial records reflecting the full
agreement amount of the contract and fee. GovWorks records a receivable
transaction and uses the Intragovernmental Payment and Collections System to
bill DoD for the full amount. DoD liquidates the obligation on its financial
records. GovWorks receives the funds and records the fee and contract as
separate transactions on its financial records. GovWorks then performs the
acquisition services. DoD cannot track the individual MIPR balances. Once the
funds are expended, they are no longer reflected on accounting records as
unliquidated funds. This practice continued through April 13, 2007.

       NIH. According to the project manager of the finance office at the NIH
Information Technology Acquisition and Assessment Center, prior to the receipt
of goods and services, NIH withdraws the entire amount of the MIPR once it
accepts the MIPR from DoD. This practice continued through June 12, 2007.

        VA. At VA, the BuyIT.gov Program Manager and Chief Acquisition
Management Services Austin Automation Center (now the VA Corporate
Franchise Data Center) stated that the full amount of the contract and fee were
collected after the contract was awarded prior to receiving the goods and services.
To illustrate, DoD hypothetically sends $1 million (using a MIPR) to the VA
Corporate Franchise Data Center and receives an acceptance MIPR. The VA
Corporate Franchise Data Center uses its own funds and completes the
procurement and award. The contracting officer reports the value of the contract
to the VA Corporate Franchise Data Center business support specialist and the
next month the business support specialist collects through the Intra-
Governmental Payment and Collection System the full contract amount plus fee
from DoD. The VA personnel pay the contractor as work is performed and
accepted. The contracting officer certifies invoices based on the DoD contracting
officer technical representative acceptance of goods and services.

DoD Policy. The DoD FMR, volume 4, chapter 5, “Advance and Prepayments,”
January 1995, reiterates 31 U.S.C. 3324. The regulation also provides guidance
on the accounting policy for advances. DoD Components shall record advances
as assets until receipt of goods or services involved or until contract terms are
met.

On March 1, 2007, the Under Secretary of Defense (Comptroller)/Chief Financial
Officer issued the memorandum, “Advance Payments to Non-Department of
Defense (DoD) Federal Agencies for Interagency Acquisitions,” to DoD
Components. The memorandum directed all DoD Components to stop the
practice of advancing payments to non-DoD agencies unless specifically
authorized to by law, legislative action, or Presidential authorization. The
memorandum also requested all existing advancements retained by a non-DoD
Federal agency be returned.




                                     20
Updating the DoD FMR
    The OUSD(C)/CFO and the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics continue to issue new guidance to
    improve use of non-DoD agencies. DoD organizations must rely on guidance
    contained in numerous memorandums when purchasing goods and services. This
    occurs because DoD has not updated the DoD FMR to reflect current guidance on
    purchases made by non-DoD agencies. Consequently, DoD organizations and
    non-DoD agencies may not be aware of the correct use of non-DoD agencies and
    guidance on funding purchases. Therefore, DoD organizations making purchases
    through non-DoD agencies continue to violate both the bona fide needs rule and
    the purpose statute and this could result in Antideficiency Act violations. The
    DoD memorandums include:

       •   a Principal Deputy Under Secretary of Defense (Comptroller) and Acting
           Under Secretary of Defense for Acquisition, Technology, and Logistics
           October 29, 2004, memorandum, “Proper Use of Non-DoD Contracts”;

       •   a DoD Deputy Chief Financial Officer March 24, 2005, memorandum,
           “Proper Use of Interagency Agreements for Non-Department of Defense
           Contracts Under Authorities Other Than the Economy Act”;

       •   an Under Secretary of Defense (Comptroller)/Chief Financial Officer
           March 27, 2006, memorandum, “Proper Use of Interagency Agreements
           with Non-Department of Defense Entities Under Authorities Other Than
           the Economy Act”;

       •   a Deputy Chief Financial Officer, OUSD(C)/CFO, October 16, 2006,
           memorandum, “Non-Economy Act Orders”;

       •   an Under Secretary of Defense (Comptroller)/Chief Financial Officer
           October 24, 2006, memorandum, “Prohibition on Parking Funds”;

       •   an Under Secretary of Defense (Comptroller)/Chief Financial Officer
           March 1, 2007, memorandum, “Advance Payments to Non-Department of
           Defense (DoD) Federal Agencies for Interagency Acquisitions”;

       •   a Director, Defense Procurement and Acquisition Policy March 2, 2007,
           memorandum, “Contracts for Services”;

       •   an Under Secretary of Defense for Acquisition, Technology, and Logistics
           March 21, 2007, memorandum, “Leasing Office Space”; and

       •   an Under Secretary of Defense (Comptroller)/Chief Financial Officer
           June 21, 2007, memorandum, “Inter-Agency Anti-Deficiency Act (ADA)
           Preliminary and Formal Investigation Compressed Schedule Policy.”

    With so many memorandums, DoD organizations may not be aware of the latest
    guidance. Additionally, it is unclear whether this information is passed on to non-
    DoD agencies making purchases on behalf of DoD. Also, DoD

                                        21
    Instruction 5025.01, “DoD Directives Program,” issued October 28, 2007,
    provides policy on DoD issuances. The instruction states that DoD Directive-type
    memorandums shall only be issued for time-sensitive actions that will become
    DoD issuances and only when time constraints prevent publishing a new issuance.
    The DoD Directive-type memorandums shall not be used permanently and shall
    be effective for no more than 180 days from date of signature. Therefore, the
    OUSD(C)/CFO and the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics violated DoD policy because DoD issuances have not
    been updated.

    Additionally, the OUSD(C)/CFO has repeatedly stated that the DoD FMR would
    be updated to clarify interagency purchases. OUSD(C)/CFO management
    comments to various DoD IG reports stated that the DoD FMR would be updated.
    DoD IG Report No. D-2005-096 comments stated the update would occur in
    September 2005 and DoD IG Report No. D-2007-007 stated the update could
    occur in December 2006. Other reports cite that the DoD October 16, 2006,
    Memorandum will correct the funding issues. This memorandum states the
    policy will be included in the next update of the DoD FMR, scheduled for the first
    quarter of FY 2007. The USD(C)/CFO should take steps to immediately update
    the DoD FMR.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

            a. Update DoD 7000.14-R, “Financial Management Regulation,” to
    reflect the information contained in the many policy memorandums issued in
    the last few years regarding interagency purchasing.

    Management Comments. The Assistant Deputy Under Secretary of Defense
    (Financial Management), responding for the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, concurred with the recommendation and as
    of February 29, 2008, updated appropriate sections of the DoD FMR.

    Audit Response. Management comments are responsive. No further comments
    are necessary.

           b. Determine why the formal investigations for the eight purchases
    (the Army Material Command Headquarters Building purchase, Security
    System Assessment purchase, Joint Conflicts and Tactical Simulation System
    Assessment purchase, Web Management Design purchase, Sensor Evaluation
    purchase, Web Site Development purchase, Active Directory Support
    purchase, and Combat Banners purchase) were not completed by the time
    frames as required by DoD 7000.14-R, “Financial Management Regulation.”
    Ensure the Services complete the eight formal investigations as required.


                                        22
Management Comments. The Assistant Deputy concurred with the
recommendation and will determine from the Services why the formal
investigations were not completed according to the time frames in the DoD FMR.

Audit Response. Management comments are responsive. No further comments
are necessary.

      c. Closely monitor the 47 formal investigations to ensure the DoD
organizations complete the investigations within the new time frames.

Management Comments. The Assistant Deputy concurred with the
recommendation and established a task force in May 2007 to monitor all potential
ADA violation cases arising from interagency agreements.

Audit Response. Management comments are responsive. No further comments
are necessary.

        d. Coordinate with the DoD Office of General Counsel and the Under
Secretary of Defense for Personnel and Readiness and work with the U.S.
Office of Personnel Management to develop the applicable authority to
discipline the organizations, individuals, or both that commit funding
problems that could lead to potential Antideficiency Act violations. Such
actions should deter organizations and individuals from repeatedly making
improper use of funds. Once appropriate authority is established, we
recommend that DoD 7000.14-R, “Financial Management Regulation,” be
updated to include guidance and appropriate administrative actions for
individuals or organizations who misuse funds regarding the bona fide needs
rule. Even though bona fide needs rule violations can be mitigated by
replacing improper funds with correct funds, the initial misuse of funds
should not be tolerated and personnel should be held accountable. The
Under Secretary of Defense (Comptroller)/Chief Financial Officer should
also strengthen internal controls such as offering training and issuing clear,
consistent policies.

Management Comments. The Assistant Deputy partially concurred with the
recommendation and stated the OUSD(C)/CFO staff sought advice from the DoD
OGC. The USD(C)/CFO cannot require Components to impose a specific penalty
for a particular type of fiscal violation. A responsible individual’s actions,
resulting in an ADA violation, often occur because of mistakes and errors rather
than actual misconduct. In these cases, remedial action must involve training or
other process changes rather than imposition of “discipline.” The USD(C)/CFO
will request the Under Secretary of Defense for Personnel and Readiness issue
policy requiring that the Components address misconduct resulting in ADA or
bona fide needs violations within regulatory tables or within other appropriate
regulatory issuances. Action by the U.S. Office of Personnel Management will
not be required. The Assistant Deputy stated that the concept of “discipline” does
not extend to governance of subordinate organizations within DoD. Finally, the
USD(C)/CFO will continue ongoing efforts at strengthening internal controls
such as offering training and issuing clear, consistent policies.



                                    23
Audit Response. The Assistant Deputy Under Secretary of Defense (Financial
Management) comments did not fully address the recommendation. As evident
by the charts within this report, most DoD organizations audited committed
potential ADA violations, but took corrective actions to address the issues. We
recognize that some violations occur due to mistakes and errors; however, we
found that several DoD organizations have repeatedly committed and corrected
bona fide needs violations. Without disciplinary action, there is no reason to
believe that the personnel within these organizations, who continue to violate the
bona fide needs rule, will change their actions. We continue to believe that a
statutory requirement is necessary to establish the authority needed to discipline
individuals or organizations that repeatedly violated the bona fide needs rule and
correct the violation if they are caught. Obtaining statutory requirements, such as
reporting and disciplinary sections prescribed for ADA violations, as discipline
for bona fide needs violations, will encourage personnel to act in a responsible
manner. The Assistant Deputy’s response states that she will ask the Under
Secretary of Defense for Personnel and Readiness to issue policy instead of
seeking statutory authority to discipline personnel who repeatedly violate the
bona fide needs rule. Throughout the audit, she and DoD OGC maintained that
DoD had no authority to discipline employees for bona fide needs violations and
that the law did not provide an avenue for taking disciplinary actions. We believe
such a law is needed, and it would go along way to strengthen internal controls.




                                    24
Appendix A. Scope and Methodology
   We conducted this performance audit from July 2007 through February 2008 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We performed this audit in accordance with various public laws. This includes
   section 802, Public Law 108-375, “Ronald W. Reagan National Defense
   Authorization Act for Fiscal Year 2005”; section 811, Public Law 109-163,
   “National Defense Authorization Act for Fiscal Year 2006”; and section 817,
   Public Law 109-364, “John Warner National Defense Authorization Act for
   Fiscal Year 2007.” The audit is a follow up to determine the results of
   recommendations made earlier this year on DoD IG Report No. D-2007-042,
   “Potential Antideficiency Act Violations on DoD Purchases Made Through Non-
   DoD Agencies,” January 2, 2007. We reviewed the actions taken this year as a
   direct result of DoD IG Report No. D-2007-042. These actions included those
   taken by the OUSD(C)/CFO and DoD organizations that had identified potential
   ADA violations.

   We consulted with the OGC of the DoD and the DoD IG on the interpretation and
   intent of the United States Code regarding the ADA and bona fide needs rule. We
   reviewed DoD FMR and DoD guidance on ADA violations and the bona fide
   needs rule. We also participated in meetings with management personnel to
   discuss the proper use of funds.

   We reviewed the steps the OUSD(C)/CFO took to stop advance payments made
   to non-DoD agencies. We obtained copies of memorandums and letters requiring
   the ceasing of payments. We reviewed Certification Memorandums,
   OUSD(C)/CFO memorandums requesting preliminary reviews, SFs 1081, DoD
   Office of the General Counsel (Fiscal) Coordination, and applicable MIPRs to
   determine the status of and actions taken by the Components and OUSD(C)/CFO
   on potential ADA violations.

   The SF 1081 provided information regarding the disbursement of payment,
   usually correcting the fiscal year of appropriated funds. Some SFs 1081 corrected
   the entire amount of the MIPR, and therefore there was not a one-to-one
   correction for the potential ADA violations identified. We reviewed
   125 SFs 1081 valued at approximately $24 million. To certify the availability of
   funds for transfer, we reviewed the Funds Control Manager memorandums. The
   memorandums also listed the MIPR(s) involved in the transfer of funds. We
   compared the amount of funds transferred using the SFs 1081 and MIPRs to the
   amount of the potential ADA violation identified in the various reports.

   We determined the status and actions taken of the investigations into potential
   Antideficiency Act violations cited in DoD IG Report No. D-2007-042.
   Depending on the course of action taken by the OUSD(C)/CFO and DoD
                                       25
organization, we determined if a preliminary review was conducted and whether
an ADA investigation was necessary and completed. If corrective actions were
taken by the Components (that is, funds were replaced), we determined whether
the actions properly corrected the potential ADA violation.

DOI Purchases. We reviewed 43 contract actions valued at $47.6 million,
awarded from November 2006 through February 2007 at two DOI contracting
activities, GovWorks and the Southwest Acquisition Branch. We also reviewed
50 additional GovWorks contract obligations, valued at $4.8 million for funding
issues.

Department of the Treasury Purchases. We selected 29 contract actions valued
at $11.2 million for review. We visited four FedSource centers; the Department
of the Treasury, Bureau of the Public Debt, Administrative Resources Center; and
selected DoD installations.

GSA Purchases. For DoD IG Report No. D-2005-096, we reviewed
75 purchases funded by 144 MIPRs valued at about $406 million, which occurred
primarily in the fourth quarter of FY 2004. For DoD IG Report No. D-2007-007,
“FY 2005 DoD Purchases Made Through the General Services Administration,”
October 30, 2006, we reviewed 56 purchases funded by 223 MIPRs valued at
approximately $179 million.

NASA Purchases. For DoD IG Report No. D-2007-023, “FY 2005 DoD
Purchases Made Through the National Aeronautics and Space Administration,”
November 13, 2006, we reviewed 111 orders, valued at approximately
$85.9 million.

NIH Purchases. We reviewed 98 delivery orders valued at $33.2 million, which
were for the purchase of commercial off-the-shelf supplies from the Electronic
Commodities Store III contracts. During FY 2006, DoD sent 96 MIPRS, valued
at $90.9 million, for use of the NIH Chief Information Officer-Solutions and
Partners 2 Innovations contracts. Those MIPRs were related to 28 task orders that
have a potential task order ceiling value of $697.6 million. We reviewed all
28 task orders, which were for the purchase of services.

VA Purchases. We reviewed a total of 58 purchases at DoD and VA activities
funded by 124 MIPRs valued at approximately $128.3 million. Thirty-four of the
58 purchases were reviewed solely at DoD activities and 9 of the 58 purchases
were reviewed solely at VA activities. We reviewed 15 purchases at both DoD
and VA activities. We reviewed 49 purchases at DoD activities funded by
112 MIPRs valued at $121.7 million.

Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

Government Accountability Office High-Risk Area. GAO has identified
several high-risk areas in DoD. This report provides coverage of the
“Management of Interagency Contracting” high-risk area.



                                   26
Appendix B. Prior Coverage
    During the last 5 years, GAO, DoD IG, Army, GSA, DOI, the Department of the
    Treasury, and VA have issued 31 reports discussing interagency procurements
    and potential ADA violations. Unrestricted GAO reports can be accessed over
    the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed
    at http://www.DoDig.mil/audit/reports. Unrestricted Army reports can be
    accessed at http://www.hqda.army.mil. Unrestricted GSA reports can be accessed
    at http://www.gsa.gov. Unrestricted DOI reports can be accessed at
    http://www.doioig.gov. Unrestricted Department of the Treasury reports can be
    accessed at http://www.treas.gov/inspector-general/. Unrestricted VA reports can
    be accessed at http://www.va.gov/oig/.


GAO
    GAO Report No. GAO-07-310, “High-Risk Series: An Update,” January 2007

    GAO Report No. GAO-06-996, “Interagency Contracting: Improved Guidance,
    Planning, and Oversight Would Enable the Department of Homeland Security to
    Address Risks,” September 2006

    GAO Report No. GAO-05-456, “Interagency Contracting: Franchise Funds
    Provide Convenience, but Value to DOD is Not Demonstrated,” July 2005

    GAO Report No. GAO-05-201, “Interagency Contracting: Problems with DOD’s
    and Interior’s Orders to Support Military Operations,” April 2005

    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-03-1069, “Budget Issues: Franchise Fund Pilot Review,”
    August 2003


DoD IG
    DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made
    Through the Department of the Interior” March 19, 2008

    DoD IG Report No. D-2008-050, “FY 2006 DoD Purchases Made Through the
    Department of the Treasury,” February 11, 2008

    DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the
    U.S. Department of Veterans Affairs,” December 20, 2007

    DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the
    National Institutes of Health,” November 15, 2007
                                       27
   DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
   Department of the Interior,” January 16, 2007

   DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
   DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

   DoD IG Report No. D-2007-032, “FY 2005 DoD Purchases Made Through the
   Department of the Treasury,” December 8, 2006

   DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
   National Aeronautics and Space Administration,” November 13, 2006

   DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
   General Services Administration,” October 30, 2006

   DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act
   Violations Identified During the Audit of the Acquisition of the Pacific Mobile
   Emergency Radio System,” November 23, 2005

   DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
   Services Administration,” July 29, 2005

   DoD IG Report No. D-2005-003, “DoD Antideficiency Act Reporting and
   Disciplinary Process,” October 14, 2004

   DoD IG Report No. D-2004-084, “Antideficiency Act Investigation of the
   Research, Development, Test and Evaluation, Defense-Wide Appropriation
   Account 97 FY 1989/1990 0400,” May 28, 2004


Army
   Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
   Management,” May 25, 2004


GSA IG
   GSA Report, “Compendium of Audits of Federal Technology Service Client
   Support Center Controls,” September 29, 2006

   GSA Report, “Compendium of Audits of Federal Technology Service Client
   Support Center Controls,” June 14, 2005

   GSA Report, “Compendium of Audits of the Federal Technology Service
   Regional Client Support Centers,” December 14, 2004
   GSA Report No. A040097/T/7/Z05011, “Audit of Federal Technology Service’s
   Client Support Center, Greater Southwest Region,” December 10, 2004

                                       28
     GSA Report No. A030205/T/9/Z05009, “Audit of Federal Technology Service’s
     Client Support Center, Pacific Rim Region,” December 9, 2004

     GSA Report No. A040191/T/6/Z05007, “Audit of Federal Technology Service’s
     Control and Testing of Those Controls, Heartland Region,” December 9, 2004

     GSA Report No. A040102/T/W/Z05004, “Audit of Federal Technology Service’s
     Client Support Center, National Capital Region,” December 9, 2004

     GSA Report No. A020144/T/5/Z04002, “Audit of Federal Technology Service’s
     Client Support Centers,” January 8, 2004


Department of the Interior
     DOI IG Report No. X-IN-MOA-0018-2005, “Audit of FY2005 Department of the
     Interior Purchases Made on Behalf of the Department of Defense,” January 9,
     2007


Department of the Treasury
     Department of the Treasury Report No. OIG-07-026, “ACQUISITIONS: Treasury
     Franchise Fund Needs to Improve Compliance with Department of Defense
     Procurement Requirements,” January 16, 2007


U.S. Department of Veterans Affairs
     VA Report No. 06-03540-24, “Audit of VA Purchases Made on Behalf of the
     Department of Defense,” November 19, 2007




                                      29
Appendix C. OUSD(C)/CFO Re-Evaluation of
            12 GSA Potential ADA Violations
   OUSD(C)/CFO Actions on Recommendation. In DoD IG Report No. D-2007-
   042, “Potential Antideficiency Act Violations on DoD Purchases Made Through
   Non-DoD Agencies,” January 2, 2007, the DoD IG recommended that the
   USD(C)/CFO perform an independent assessment and determine whether formal
   investigations should occur for 12 potential ADA violations. The 12 purchases
   included:

      1. Partners for Youth Success Information Technology,

      2. Partners for Youth Success Program-Marketing,

      3. Steam Cleaners,

      4. Navy Excellence Through Commitment to Education and Learning,

      5. Chief Information Officer Integrated,

      6. Defense Message System,

      7. Video Teleconference Upgrades,

      8. Work Force Learning Project,

      9. Smart Gate,

      10. End User Devices,

      11. Joint Detainee Information Management System, and

      12. Beneficiary Services and Ancillary Support.

   See Appendix D for a description of each purchase. The Deputy Chief Financial
   Officer, OUSD(C)/CFO concurred and stated that his office would work with the
   DoD OGC to determine whether formal investigations should occur for the
   potential ADA violations. The OUSD(C)/CFO and DoD OGC completed a
   review of the 12 purchases and determined that no potential ADA violations
   occurred and no formal investigations were necessary. Our comments on the
   purchases are included.

   Purchases. The OUSD(C)/CFO provided a summary on the 12 purchases
   discussing why each was not considered either a bona fide needs violation or a
   purpose statute violation.

          For the Partners for Youth Success Information Technology and Partners
   for Youth Success Program-Marketing purchases, the OUSD(C)/CFO stated that
   no ADA violation had occurred because “The bona fide need existed and a legal

                                      30
obligation occurred at the time of order acceptance and year of appropriation.
The period of performance did not exceed 1 year. While considered legal, policy
was amended October 2006.” Section 1502(a), title 31, United States Code states
that funds are only available to complete contracts within the funds period of
availability or to complete contracts properly made within that period of
availability. The OUSD(C)/CFO explanation does not address the DoD MIPR
specifying the period of performance that occurred in the fiscal year after the
funds expired. The purchases do not comply with the intent of 10.U.S.C. 2410a,
which states funds made available for a fiscal year may be obligated for the total
amount of a contract entered into. The partial funds were added in FY 2004, but
the period of performance occurred in FY 2005. Accordingly, we believe the
bona fide needs rule was knowingly violated.

        For the Steam Cleaners purchase, the OUSD(C)/CFO stated the same
previous explanation and added “… The delay in delivery of the item did not
eliminate the bona fide need. Items were a bona fide need at the time of order.”
GSA awarded the contract in FY 2005 on December 22, 2004, with a delivery
date by January 24, 2005. As stated in DoD IG Report No. D-2007-042, the
Army Reserve Command used FY 2004 O&M funds for the purchase. The Army
purchased a commercial item, and there was no evidence that a long lead time
was necessary to obtain the product. Section 1502(a), title 31, United States Code
states that funds are only available to complete contracts within the funds period
of availability or to complete contracts properly made within that period of
availability. The OUSD(C)/CFO explanation does not address GSA placing the
funds on contract in the next fiscal year. Furthermore, the MIPR was sent to GSA
on September 24, 2004. Accordingly, we believe there was no expectation that
the commercial steam cleaner could ever be delivered in FY 2004.

        For the Navy EXCEL (Excellence Through Commitment to Education and
Learning) purchase, the OUSD(C)/CFO stated that no ADA violation had
occurred and that the purchase was not a major upgrade or modernization effort.
Additionally, it did not establish new functionality and the effort was migrating
from proprietary application to a commercial off-the-shelf open architecture. The
DoD FMR states for the RDT&E appropriations: “Commercial-off-the shelf
(COTS) systems that require engineering design, integration, test, and evaluation
to achieve the objective performance will be budgeted in RDT&E.” As stated in
DoD IG Report No. D-2007-042, O&M funds were used for this purchase. The
performance-based statement of work states, “In preparation for transition from
the current Phase I NKO [Navy Knowledge Online] system to the Phase II NKO
system, the contractor shall execute tasking as defined in this PBSOW
[performance-based statement of work] and the Price Performance Matrix to
develop a comprehensive Transition Plan.” The statement of work also states the
contractor shall provide new capabilities to the Phase II Navy Knowledge Online
system and prepare a New Capabilities Plan Document. Also, as stated in
DoD IG Report No. D-2007-042, the deliverables include items such as a
“software test plan,” Government Acceptance Testing, and the initial capabilities
tasks that occur at the very end of the project. The OUSD(C)/CFO explanation
does not address these issues. We believe RDT&E funds should have been used.

     For the Chief Information Officer Integration purchase, the
OUSD(C)/CFO stated no ADA violation had occurred and the statement of work

                                    31
was dated June 7, 2004, so a bona fide need was established in 2004. The order
for contracting was not initiated until late September because of the Navy review
process and Hurricane Ivan. Section 1502(a), title 31, United States Code states
that funds are only available to complete contracts within the funds period of
availability or to complete contracts properly made within that period of
availability. The purchase used FY 2004 O&M funds. The OUSD(C)/CFO did
not address that, as of December 16, 2004, no contract was in place. Also, as
stated on page 19, Comptroller General Decision B-308944 applies to this
purchase. Comptroller General Decision B-308944 states that MIPRs have to
identify specific items or services to acquire. The specificity required of
interagency agreements should be similar to the specificity required of
solicitations under the Federal Acquisition Regulation. For the Chief Information
Officer Integration Purchase, DoD IG Report No. D-2007-042 states “… no
specific interagency agreement obligating the funds existed and GSA did not
award the contract in FY 2004.” Therefore, the OUSD(C)/CFO should have
required the funds be replaced, as the OUSD(C)/CFO had numerous other DoD
organizations do with potential ADA violations identified using non-DoD
agencies.

         For the Defense Message System purchase, the OUSD(C)/CFO stated no
ADA violation had occurred and that the purchase was for an upgrade, not a
system. The DoD FMR states for procurement appropriations: for modification
efforts, only the cost of the upgrade (for example, new software, hardware, and
technical assistance) is counted towards the investment threshold of $250,000.
The OUSD(C)/CFO did not address the upgrade cost of $556,500 being more
than the procurement appropriation threshold. Therefore, we believe an ADA
violation occurred, as the wrong funds were used for the purchase.

        For the Video Teleconference Upgrades purchase, the OUSD(C)/CFO
stated no ADA violation had occurred and the system was actually 12 separate
systems that do not exceed $250,000. We concur with the response.

        For the Work Force Learning Project, the OUSD(C)/CFO stated no ADA
violation had occurred and RDT&E funds were used for the purchase.
OUSD(C)/CFO personnel stated that a Navy organization sent RDT&E funds to
the Space and Naval Warfare Systems Center New Orleans. The Space and Naval
Warfare Systems Center New Orleans then used O&M funds for the purchase.
The DoD OGC fiscal lawyer stated he was “… unaware of any fiscal law
prohibition against a DoD component accepting RDT&E or Procurement
funds … and depositing those funds into an O&M account for purposes of
carrying out the order (contracting for and providing the requested goods or
services).” This explanation appears to violates DoD policy, DoD FMR volume
3, chapter 15, paragraph 150204, which indicates that the USD(C)/CFO is the
approval authority for reimbursement programs. The OUSD(C)/CFO provided no
evidence that it delegated this authority to the Space and Naval Warfare Systems
Center New Orleans.

        For the Smart Gate purchase, the OUSD(C)/CFO stated no ADA violation
had occurred and “The bona fide need existed and a legal obligation occurred at
the time of order acceptance and year of appropriation. The delay in delivery of
the item did not eliminate the bona fide need.” The OUSD(C)CFO also wrote

                                   32
that O&M funds were appropriate as the project did not meet the definition of a
military construction project or facility. Section 1502(a), title 31, United States
Code states that funds are only available to complete contracts within the funds
period of availability or to complete contracts properly made within that period of
availability. The OUSD(C)/CFO explanation did not address that GSA did not
award the contract until April 30, 2004, using FY 2003 O&M funds, or the
approximately $100 million still remaining at GSA. Furthermore, the
OUSD(C)/CFO maintains that the contract was for supplies not services, which
was inconsistent with the scope of work (construction). Lastly, the
OUSD(C)/CFO ignored a delivery schedule for installing the Smart Gates that
extended into FY 2005.

         For the End User Devices purchase, the OUSD(C)/CFO stated no ADA
violation had occurred and “The bona fide need existed and a legal obligation
occurred at the time of order acceptance and year of appropriation. The delay in
delivery of the item did not eliminate the bona fide need. While considered legal,
policy was amended October 2006.” The Air Force used FY 2004 O&M funds,
which expired on September 30, 2004, for this purchase. Section 1502(a),
title 31, United States Code states that funds are only available to complete
contracts within the funds period of availability or to complete contracts properly
made within that period of availability. The OUSD(C)/CFO explanation did not
address that, as of January 4, 2005, no contract was in place and that GSA did not
award the purchase until July 2005, using expired funds. We believe this violates
the bona fide needs rule. Additionally, the OUSD(C)/CFO inconsistently had
DoD organizations replace funding. OUSD(C)/CFO ensured that DoD
organizations, with purchases similar to this, replaced the funds. For example, the
Air Force replaced FY 2006 O&M funds with FY 2007 funds to correct a
potential ADA violation in which a non-DoD agency did not put the funds on
contract until the next fiscal year. However, OUSD(C)/CFO did not require the
Air Force Medical Supply Agency to replace these funds.

       For the Joint Detainee Information Management System purchase, the
OUSD(C)/CFO stated no ADA violation had occurred and that the modification
was not one system. We concur with the response.

        For the Beneficiary Services and Ancillary Support purchase, the
OUSD(C)/CFO stated no ADA violation had occurred and “The bona fide need
existed and a legal obligation occurred at the time of order acceptance and year of
appropriation. The period of performance did not exceed one year. While
considered legal, policy was amended October 2006.” To meet bona fide needs
rule requirements and 10 U.S.C. 2410a considerations, the OUSD(C)/CFO has
specified that funds for severable services must be obligated in the year of the
appropriation funding the services, and the contract period of the services cannot
exceed 1 year. Additionally, 31 U.S.C. 1502(a) states that funds are only
available to complete contracts within the funds period of availability or to
complete contracts properly made within that period of availability. The
OUSD(C)/CFO explanation does not address GSA placing the funds on contract
in October 2004. We believe this violates the bona fide needs rule.




                                    33
Appendix D. FY 2004 Potential ADA Violations
            at GSA
    The following list contains the 38 potential ADA violations as they were noted in
    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005. The 12 potential ADA violations in
    Appendix C are included herein.

Army Materiel Command
    1. Relocation/IT Support. The Army Materiel Command sent
       MIPR MIPR3M6ADPP02 for approximately $1.9 million and
       MIPR MIPR3M6ADPP02 Amendment 1 for $500,000 to GSA on
       September 30, 2003, for relocation of IT support using O&M Funds. The
       relocation support included seat management equipment and services.
       Although a contract existed, GSA had not amended the contract to reflect the
       MIPR requirements as of November 2004. Use of FY 2003 O&M funds to
       satisfy FY 2005 requirements does not meet the intent of the bona fide need
       rule.

    2. Relocation/Cell Phones. The Army Materiel Command sent
       MIPR MIPR4MG6ISW040 for $420,000 to GSA on September 28, 2004,
       using O&M Funds. The requirement was for cellular phones, pagers and
       blackberries. As of November 2004, GSA had not placed the funds on
       contract to purchase the equipment. The anticipated receipt of goods after the
       DoD appropriation expired could not be justified because of delivery time,
       production lead-time, or unforeseen delays. No bona fide need exists because
       the equipment will not be provided until FY 2005 and the Army Materiel
       Command used FY 2004 O&M Funds, which expired on September 30, 2004.

    3. Management Consulting Services. The Army Materiel Command sent
       MIPR MIPR4LG1SERV21 for $324,000 to GSA on August 11, 2004, using
       FY 2004 O&M funds. GSA accepted the funds on the same day. The
       requirement funded the Army Materiel Command management consulting
       project. GSA obligated the funds against contract number GS-10F-0439P,
       task order 5TPS210R00030F on January 27, 2005, with a period of
       performance of February 1, 2005, to January 31, 2006. The procurement was
       for severable services. No FY 2004 bona fide need existed because the order
       for supplies and services met a FY 2005 requirement that lasted until
       FY 2006.

Army Accession Command
    4. Communications and Electronics Helpdesk. The Army Accession
       Command sent MIPR MIPR04A04000021 amendment 7 for $24,995 of
       FY 2004 O&M funds to GSA on September 30, 2004, to exercise option
       year 3 of a task order providing Information Technology Communications and

                                       34
   Electronic Help Desk support services from October 1, 2004 through
   September 30, 2005. Exercise of an option year is clearly a procurement of
   severable services that are not a FY 2004 requirement. GSA modified the
   contract with an effective date of October 20, 2005. FY 2004 O&M Funds
   expired on September 30, 2004, and the period of service was for FY 2005.
   The procurement was for a continuation of severable services that will be
   received in FY 2005. Therefore, no FY 2004 bona fide need existed for this
   procurement.

5. Cell Phone and Telecommunications Project. The Army Accession
   Command sent MIPR MIPR4K04000137 amendment 1 for $60,000 to GSA
   on September 23, 2004, using FY 2004 O&M Funds. It also sent
   MIPR MIPR4K04000147 amendments 1 and 5 for approximately $5.4 million
   and $1,400 to GSA on September 23 and September 30, respectively, using
   FY 2004 O&M funds. The Army Accession Command procured cell phones
   for all Army Recruiters and selected Headquarters staff to maintain contact
   with the recruiter’ applicants and staff. The task order indicates the period of
   performance was for option year 4 of the contract starting October 1, 2004,
   through September 30, 2005. Exercise of an option year is clearly a
   procurement of severable services that are not a FY 2004 requirement. The
   receipt of goods after the DoD appropriation expired could not be justified
   because of delivery time, production lead-time, or unforeseen delays. In
   addition, the services were severable and met a FY 2005 requirement.
   Therefore, no bona fide need existed in FY 2004.

6. Partners for Youth Success Program-Marketing. The Army Accession
   Command sent MIPR MIPR4G04000102 amendment 2 for $214,127 to GSA
   on September 14, 2004, using FY 2004 O&M Funds. The Army Accession
   Command required Marketing for the Army’s Recruiting Program. The Army
   Accession Command used FY 2004 O&M funds, which expired on
   September 30, 2004. The period of performance occurred from January 1,
   2005, through April 30, 2005. Therefore, no FY 2004 bona fide need existed
   for services that were clearly an FY 2005 requirement.

7. Partners for Youth Success Information Technology. The Army
   Accession Command sent MIPR MIPR4G04000104 amendment 2 for
   approximately $167,000 to GSA on September 14, 2004, using O&M funds.
   FY 2004 O&M funds expire on September 30, 2004. The Army Accession
   Command procured IT support to develop and maintain a web-based
   marketing tool for recruiting. The MIPR period of performance for service is
   January 1, 2005, through April 30, 2005. Therefore, no FY 2004 bona fide
   need existed for services that were clearly a FY 2005 requirement.

8. Joint Recruiting Management System. The Army Accession Command
   sent MIPR MIPR4A04000026 amendment 6 for $300,000 to GSA on
   September 24, 2004, using FY 2004 O&M funds. The Army Accession
   Command exercised option year 3 of a task order to continue services in
   support of the development of a database to maintain the information/leads on
   potential applicants for military service. Exercise of an option year is clearly
   a procurement of severable services that are not a requirement of FY 2004.
    The period of performance for services occurred from October 1, 2004,

                                    35
       through September 30, 2005. The procurement for services was severable and
       met a FY 2005 requirement. Therefore, no bona fide need existed for FY
       2004.

Army Reserve Command
    9. Individual Training Requirements System. The Army Reserve Command
       sent MIPR MIPR04ITRS3092 for $1,700,244 to GSA on July 27, 2004, using
       O&M funds, which expire on September 30, 2004. The Army Reserve
       Command exercised option year 3 to continue support services for the
       Individual Training Requirements System project. There was no bona fide
       need in FY 2004 because option year 2 covered that fiscal year. Therefore,
       the bona fide need did not rise until FY 2005. Exercise of an option year is
       clearly a procurement of severable services that were not a FY 2004
       requirement. GSA obligated the funds against contract number GS-35F-
       4797H, task order 4TEG21023601. The MIPR identified FY 2005 as the
       period funded. No FY 2004 bona fide need existed because the MIPR funded
       a FY 2005 requirement.

    10. Steam Cleaners. The Army Reserve Command sent
        MIPR MIPR04STEAM169, for approximately $49,000 to GSA on
        September 24, 2004, using O&M Funds, to purchase a heavy equipment
        steam cleaner mounted on a flat bed trailer. The acquiring official stated that
        he ordered the equipment through GSA rather than lose the funding. As of
        February 22, 2005, the steam cleaners had not been received but Army
        Reserve Command officials believed the steam cleaners were on contract.
        The receipt of goods after the DoD appropriation expired could not be
        justified because of delivery time, production lead-time, or unforeseen delays.
        Therefore, no bona fide need existed for this requirement.

    11. Army Wide Training Tracking System/Army Training and Information
        Management System Development. The Army Reserve Command sent
        MIPR MIPR04WWODT120 for approximately $662,000 to GSA on
        September 24, 2004, using FY 2004 O&M Funds, to support and maintain an
        internet based management and tracking system to accommodate all Army
        units and soldiers conducting training events. GSA accepted the funds on
        September 25, 2004, but had not awarded a contract as of November 23, 2004.
        The procurement was for severable services described in a statement of work
        dated November 2, 2004. Therefore, no bona fide need existed for this
        procurement in FY 2004.

National Guard Bureau
    12. Sensor Evaluation. The National Guard Bureau sent
        MIPR NMIPR04860345 to GSA for $208,333 on September 23, 2004, using
        FY 2004 O&M funds. GSA accepted the funds on September 27, 2004. GSA
        awarded Order number GST0405DE0025, Contract GS04T02BFD003 on
        November 17, 2004. The National Guard Bureau required sensors and a
        procurement plan for equipping the C-130 RORO pallet with operational

                                        36
   sensors in support of the Counter drug Technology Consortium Project. The
   statement of work identified the project as developmental. The statement of
   work also identified developmental type tasks, that is, systems design,
   prototypes and the work is performed at a Research Institute. RDT&E Funds
   are used to develop major system upgrades, to purchase test articles, and to
   conduct developmental testing and initial operational testing and evaluation
   prior to system acceptance and subsequent production. Based on this
   information, RDT&E funds should have been used instead of O&M funds.
   Therefore, the National Guard Bureau used an incorrect appropriation. In
   addition, GSA awarded the task order on November 17, 2004, in FY 2005.
   The period of performance for the requirement is for 18 months, from
   November 17, 2004, through May 16, 2006. GSA awarded the contract action
   in FY 2005 and the period of performance was in FY 2005 and FY 2006.
   FY 2004 O&M funds cannot be used to fund severable services on this
   contract action for more than 12 months. In addition, the receipt of goods
   after the DoD appropriation expired could not be justified because of delivery
   time, production lead-time, or unforeseen delays. Therefore, there was no
   bona fide need for this purchase in the fiscal year of the appropriation used
   and a potential Antideficiency Act violation has occurred.

13. Web Site Development. The National Guard Bureau sent
    MIPR NMIPR04860338 for $200,000 to GSA on September 17, 2004, using
    FY 2004 O&M funds. GSA accepted the funds on September 28, 2004. GSA
    awarded the contract November 22, 2004. The National Guard Bureau
    required support for development of the Counterdrug internal Web sites. The
    statement of work identifies the work as developmental. It states that “the
    intent of NGB-CD [National Guard Bureau–Counterdrug] that this “NGB-CD
    Internal Web Management System Development” work follow a spiral
    developmental model.” The statement of work also identifies developmental
    type tasks, that is, systems design, prototypes. The work is performed at a
    Research Institute. RDT&E Funds are used to develop major system
    upgrades, to purchase test articles, and to conduct developmental testing and
    initial operational testing and evaluation prior to system acceptance and
    subsequent production. Based on this information, RDT&E funds should
    have been used instead of O&M funds. Therefore, the National Guard Bureau
    used an incorrect appropriation. In addition, GSA awarded the contract
    November 22, 2004, in FY 2005. The period of performance for this GSA
    contract action is from November 22, 2004, through May 21, 2006. FY 2004
    O&M funds cannot be used to fund severable services on this contract more
    than 12 months. Therefore, a potential Antideficiency Act violation has
    occurred.

14. Weapons of Mass Destruction First Response Equipment Buy. The
    National Guard Bureau sent MIPR NMIPR04860337 for $7 million to GSA
    on September 16, 2004, using FY 2004 O&M funds. GSA had not awarded a
    contract as of January 31, 2005. Accordingly, the bona need rule was not met.
    The National Guard Bureau required program management, training
    information systems delivery, equipment logistics support, and procurement
    support for the Weapons of Mass Destruction 1st Response Equipment Buy.
    This purchase consists of support services and equipment. The acquisition
    and deployment of a system, the aggregate cost of all components such as

                                   37
       equipment, integration, engineering support, and software, with a cost of
       $250,000 or more is an investment and should be funded with Other
       Procurement Funds. Based on the statement of work task description, the
       National Guard Bureau should have used Other Procurements Funds instead
       of O&M funds. Therefore, the National Guard Bureau also used an incorrect
       appropriation. Since no contract was awarded, the National Guard Bureau
       should deobligate the funds currently at GSA for this purchase and start over
       with the correct appropriation. Once those actions are complete, there will not
       be a potential Antideficiency Act violation in connection with this purchase.

    15. Active Directory Support. The National Guard Bureau sent Miscellaneous
        Obligation/ Reimbursement Document OGMORD0486046 for $10.1 million
        to GSA on August 20, 2004, using O&M funds. The National Guard Bureau
        required strategic planning, requirements analysis, systems integration,
        facilities management, office automation and networks; software
        management, data management, information systems engineering, training
        maintenance, and tools in support of the Active Director Support Project. The
        acquisition and deployment of a complete system, the aggregate cost of all
        components such as equipment, integration, engineering support, and
        software, with a cost of $250,000 or more is an investment and should be
        funded with Other Procurement Funds. Based on the above description of the
        task, Other Procurement Funds should have been used instead of O&M funds.
        Therefore, the National Guard Bureau used an incorrect appropriation.

    16. Combat Banners. The Project Office for Combat Banners is at the
        Air Combat Command. The Air National Guard sent MIPR NMIPR04860278
        for $327,000 to GSA on August 19, 2004, using FY 2004 O&M Funds. The
        Air National Guard requirement included a wide variety of airborne
        simulation capabilities utilizing Lear 35/36 Type (or similar) aircraft towing
        the TDU-32A/B providing target presentations to train Air Force Fighter
        pilots and weapon systems operators on the employment of the M61 20mm
        gun. GSA obligated funds against contract number GS03T02DSD0011, task
        order GST0304DS2026 on September 13, 2004, for supplies to be delivered in
        December 2005, and task order GST0305DS2237 on February 1, 2005, for
        missions to be accomplished in February and June 2005. The receipt of
        supplies after the DoD appropriation expired could not be justified because of
        delivery time, production lead-time, or unforeseen delays. The procurement
        for services is severable and meets FY 2005 requirements. Therefore, a bona
        fide need does not exist for FY 2004.

Army Program Manager, Defense Communications and Army
  Transmission Systems
    17. AMC Headquarters Relocation Project. The PM/DCATS sent 18 MIPRs
        for approximately $44 million to GSA, using FY 2002, FY 2003, and
        FY 2004 O&M Funds, for the relocation of the Army Material Command
        Headquarters. GSA contractors built 2 modular buildings that did not
        previously exist, to lease to PM/DCATS. Military Construction includes the
        work to produce a complete and usable facility. PM/DCATS should have

                                        38
       requested Military Construction Funds from Congress for the project.
       Therefore, PM/DCATS used the incorrect appropriation.

Naval Education and Training Command
    18. Computer Purchase. The Naval Education and Training Command sent
        MIPR N6804504MPAC202 for $8 million to GSA on August 24, 2004, using
        O&M Funds, which expire on September 30, 2004. The Naval Education and
        Training Command requested GSA procure 5,000 computers. GSA obligated
        the funds against contract number GS-35F-0215J, task order 4TNG17042010
        on September 7, 2004. Because the Naval Education and Training Command
        is upgrading its computers, and the cost is above the threshold of $250,000 for
        use of O&M Funds, Other Procurement Funds should have been used. Other
        Procurement Funds are used for upgrades, including new hardware, with a
        cost of $250,000 or more. Therefore, the Naval Education and Training
        Command used the incorrect appropriation.

    19. Learning Management System Support. The Naval Education and
        Training Command sent MIPR N6804504MPEL265 for approximately
        $3.5 million to GSA on September 28, 2004, using FY 2004 O&M Funds.
        The Naval Education and Training Command used GSA to procure the
        Learning Management System Support Integrated Learning Environment.
        The purpose is to provide those products and services necessary to provide
        functionality in support of the Navy’s Integrated Learning Environment. The
        period of performance is from October 2004 through September 2005,
        fulfilling a FY 2005 requirement. FY 2005 funds should have been used. The
        receipt of goods after the DoD appropriation expired could not be justified
        because of delivery time, production lead-time, or unforeseen delays.
        Therefore, there was no bona fide need in FY 2004 for this procurement.

    20. Chief Information Officer Integration. The Naval Education and Training
        Command sent MIPR N6804504MPFQ446 for approximately $546,000 to
        GSA on September 30, 2004, using FY 2004 O&M Funds. The Naval
        Education and Training Command purchased support study services for the
        Navy Marine Corps Intranet project. As of December 16, 2004, GSA had not
        awarded a contract for this requirement. Accordingly, the bona fide need rule
        was not met.

    21. Navy EXCEL. The Naval Education and Training Command sent
        MIPR N6804504MPX5104 for approximately $2.5 million to GSA on
        July 21, 2004; MIPR N6804504MPX5104 amendment 1 for approximately
        $5.7 million to GSA on September 13, 2004; and MIPR N6804504MPX5104
        amendment 2 for $2.4 million to GSA on September 25, 2004, using
        O&M Funds. The Naval Education and Training Command used GSA to
        procure the Navy Knowledge Online Task Force EXCEL (Excellence through
        Commitment to Education and Learning) to transform training to incorporate
        changes in technologies, systems, and platforms being developed for
        tomorrow’s Fleet. GSA obligated the funds against contract number
        GS-35F-4381G on June 9, 2004, and modified the order on July 28, 2004. It
        appears that GSA awarded the task and work started prior to GSA receiving

                                        39
       funds from DoD. The deliverables in the statement of work include items
       such as "software test plan" and Government Acceptance Testing. Also, the
       initial capabilities task occurs at the very end of the project. RDT&E Funds
       are used to develop major system upgrades, to purchase test articles, and to
       conduct developmental testing and initial operational testing and evaluation
       prior to system acceptance and subsequent production. Therefore, the Naval
       Education and Training Command used the incorrect appropriation.

Naval Reserve Forces
    22. Defense Message System. The Naval Reserve Forces sent
        MIPR N000720MP34275, for approximately $706,000 to GSA on
        September 13, 2004 and MIPR N000720MP34275 amendment 1, for
        $566,500 to GSA on September 29, 2004, using O&M Funds that expired on
        September 30, 2004. The Naval Reserve Forces upgraded the Defense
        Message System servers and messaging. GSA obligated the funds against
        contract number GS-35F-4076D, task order BJB174733T2 for computers on
        September 27, 2004, and contract number GS-35F-4390G, task order
        FJB174739T2 for training on November 1, 2004. The modification of a
        system with a cost of $250,000 or more is an investment and should be funded
        with Other Procurement Funds. Therefore, the Naval Reserve Forces used the
        incorrect appropriation.

Space and Naval Warfare Systems Command
    23. Toner Printer Supplies. The Space and Naval Warfare Systems Command
        sent MIPR N0003904IPFG003 for approximately $212,000 to GSA on
        September 22, 2004, for toner supplies, using FY 2004 O&M Funds. The
        Space and Naval Warfare Systems Command purchased toner for FY 2005,
        using FY 2004 funds. The receipt of goods after the DoD appropriation
        expired could not be justified because of delivery time, production lead-time,
        or unforeseen delays. Therefore, no bona fide need existed.

    24. Video Teleconference Upgrades. The Space and Naval Warfare Systems
        Command sent MIPR N0003904IPFG004 for approximately $416,000 using
        O&M Funds and MIPR N0003904IPFDB97 for $460,000 to GSA on
        September 29, 2004, using Other Procurement Funds, to purchase video
        teleconference upgrades and equipment. GSA obligated the funds against
        contract number GST0905DF0040 in October 2004. The Space and Naval
        Warfare Systems Command obtained upgrades (using MIPR
        N0003904IPFG004) above the O&M funds threshold of $250,000. The
        modification of a system with a cost of $250,000 or more is an investment and
        should be funded with Other Procurement Funds. Therefore, the Space and
        Naval Warfare Systems Command used the incorrect appropriation. The
        FY 2004 O&M Funds expired on September 30, 2004, and GSA did not sign
        the contract for services until October 2004. The procurement for upgrade
        services portion of this order was severable and met a FY 2005 requirement.
        Therefore, no FY 2004 bona fide need existed.


                                        40
Space and Naval Warfare Systems Center New Orleans
    25. Work Force Learning Project. The Space and Naval Warfare Systems
        Center New Orleans sent MIPR N6925004MPGR001 for approximately
        $3.2 million to GSA on September 28, 2004, using O&M Funds. The Space
        and Naval Warfare Systems Center New Orleans used GSA to explore
        distance learning capabilities as an efficient and effective training vehicle for
        the DoD. This project is to further investigate and maximize use of distance
        learning techniques to support the civilian community learning requirements.
        GSA did not award a contract as of November 23, 2004. RDT&E funds are
        used to develop major system upgrades, to purchase test articles, and to
        conduct developmental testing and initial operational testing and evaluation
        prior to system acceptance and subsequent production. The Space and Naval
        Warfare Systems Center New Orleans should have used RDT&E funds
        because the type of work to be performed is research, definition, prototyping,
        and validation of processes, methods and tools related to civilian workforce
        development. Therefore, the Space and Naval Warfare Systems Center
        New Orleans used the incorrect appropriation. In addition, FY 2004
        O&M Funds expired on September 30, 2004. GSA did not award a contract
        as of November 23, 2004. The procurement for services is severable and
        meets a FY 2005 requirement. No FY 2004 bona fide need exists.

Air Combat Command
    26. Battle Management Project. The Air Combat Command sent
        MIPR DD48809N401296 for $1 million to GSA on September 9, 2004, using
        FY 2004 O&M Funds. The Air Combat Command purchased professional
        services for maintenance and repair of ground-base radar equipment and to
        Manage Air Combat Aerospace Operations Planning and Training Programs
        for the Battle Management Operations. GSA obligated the funds against
        contract number GS07T00BGD0021 exercising option year 3 of the services
        contract. The period of performance on the statement of work is October 1,
        2004, through September 30, 2005, which is FY 2005. Option year 2 of the
        contract, covering the same services, ended on September 30, 2004. The
        procurement for services is severable and meets a FY 2005 requirement.
        FY 2005 O&M Funds should be used. Therefore, a bona fide need did not
        exist for FY 2004.

    27. Modernization of Weapon Systems. The Air Combat Command sent
        MIPR DD44809N401215 for approximately $1.1 million to GSA on
        August 19, 2004, using FY 2004 O&M Funds to be obligated against contract
        number GS-00F-0034L, task order T0002AJ0213. The Air Combat
        Command tasks included technical evaluations and requirements development
        planning through automated acquisition and management of relevant data and
        technical assistance to support development of all integrated Air Force
        modernization and sustainment planning activities. Other Procurement Funds
        should have been used because of the cost of the upgrade, which includes
        technical assistance, is counted towards the investment threshold of $250,000


                                         41
        or more. Therefore, the Air Combat Command used the incorrect
        appropriation.

Air Force Electronic Systems Center
     28. Smart Gate. ESC/FD sent MIPR NFDXXX03681387 for approximately
         $159 million to GSA on August 22, 2003; MIPR NFDXXX03681387
         Amendment 1 for approximately $15 million to GSA on September 9, 2003;
         and MIPR NFDXXX03681387 Amendment 2 to pull back approximately
         $3 million from GSA on September 30, 2003, for security upgrades using
         FY 2003 O&M Funds, which expired on September 30, 2003. These
         upgrades included the smart gates, vehicle barriers, explosive detection
         equipment, and thermal imagers. Overall, five contracts awards are planned.
         GSA awarded contracts on April 30, 2004, and December 12, 2003, for
         vehicle barriers and thermal imager equipment, respectively. GSA used the
         General Supply Fund to award the two contracts that were funded for
         approximately $41 million. Additionally, GSA seeks to award three
         additional contracts for handheld and desktops explosive detection equipment
         and smart gates for approximately $130 million. The GSA initial review of
         the 3 proposals has indicated that it too has some concerns. The receipt of
         goods after the DoD appropriation expired could not be justified because of
         delivery time, production lead-time, or unforeseen delays. No bona fide need
         exists because the funds expired on September 30, 2003, and the work would
         not be performed until FY 2005 or later. Military Construction includes the
         cost of all military construction work to produce a complete and usable
         facility or a complete and usable improvement to an existing facility. Because
         the vehicle barriers are construction, ESC/FD should have used Military
         Construction Funds. Therefore, ESC/FD used the incorrect appropriation.

     29. Security System Assessment. ESC/FD sent MIPR NFDXXX03681571 for
         $2.9 million to GSA on September 25, 2003, using O&M funds for
         completion of site visits as the first part of the Security Assessment of
         100 Air Force Bases. GSA awarded the contract in October 2003. The
         procurement for services is severable and met a FY 2004 requirement.
         Therefore, no FY 2003 bona fide need existed for this purchase.

     30. Joint Conflicts and Tactical Simulation System Assessment. ESC/FD sent
         MIPR NFDXXX03681595 for approximately $1.24 million to GSA on
         September 30, 2003, utilizing O&M funds. GSA awarded the contract in
         October 2003. The ESC/FD procured support services to conduct a
         simulation vulnerability study of 100 Air Force Bases worldwide. The
         procurement for services is severable and met a FY 2004 requirement.
         Therefore, no FY 2003 bona fide need existed for the purchase.

Air Force Medical Support Agency
     31. End User Devices. The Air Force Medical Support Agency sent
         MIPR NMIPR045204141 for approximately $2.8 million and
         MIPR NMIPR045204112 for approximately $8.2 million to GSA on

                                         42
       September 14, 2004, and September 1, 2004, respectively, using O&M funds.
       The Air Force Medical Support Agency required End User Devices in support
       of the worldwide deployment of Composite Health Care Systems to Air Force
       Medical Facilities. FY 2004 O&M funds expired on September 30, 2004. As
       of January 4, 2005, GSA has not awarded a contract action for the
       requirements for MIPR NMIPRO4524141. The receipt of goods after the
       DoD appropriation expired could not be justified because of delivery time,
       production lead-time, or unforeseen delays. Therefore, no bona fide need
       existed.

    32. Web Management Design. The Air Force Medical Support Agency sent
        MIPR NMIPR405203590 for approximately $1.7 million and
        MIPR NMIPR045204164 for $288,000 to GSA on October 16, 2003, and
        September 28, 2004, respectively, using FY 2004 O&M funds. The Air Force
        Medical Support Agency required Web Management, Design, and Contract
        Support. GSA awarded a contact with funds from MIPR NMIPR405203590
        on January 28, 2004. However, the Air Force Medical Support Agency
        personnel could not determine whether GSA awarded a contract for
        MIPR NMIPR045204164 as of January 5, 2005. Contracts for severable
        services must be formed in the fiscal year of the funds being used. Services
        under such contracts must meet the bona fide needs rule. Accordingly, we
        believe the Air Force Medical Support Agency did not have a bona fide need
        for the FY 2004 O&M funds used on MIPR NMIPR045204164. Furthermore,
        the Air Force Medical Support Agency used O&M funds for the purchase of
        developmental type equipment, which should have been funded with RDT&E
        funds. RDT&E Funds are used to develop major system upgrades, to
        purchase test articles, and to conduct developmental testing and initial
        operational testing and evaluation prior to system acceptance and subsequent
        production. The Air Force Medical Support Agency used the incorrect
        appropriation for this purchase. Also, the Air Force Medical Support Agency
        funded the FY 2005 option year with a combination of FY 2002 and 2003
        O&M funds. See section on Improper Use of Funds, page 13 for further
        details.

U.S. Southern Command
    33. Debit Card Pilot Program. The Southern Command sent
        MIPR MIPR3L21F60012 for $637,294 to GSA on August 13, 2003 and
        MIPR MIPR3L21F60012 Amendment 1 for $150,000 to GSA on
        September 25, 2003, using O&M funds. GSA awarded the contract on
        August 20, 2003. The requirement is for testing the U.S. Debit Card for the
        U.S. Treasury Department and developing an interface with DoD financial
        systems. RDT&E Funds are used to develop major system upgrades, to
        purchase test articles, and to conduct developmental testing and initial
        operational testing and evaluation prior to system acceptance and subsequent
        production. Because the Southern Command is requiring contractors to
        perform testing and developmental efforts, RDT&E Funds should have been
        used instead of O&M Funds. Therefore, the Southern Command used the
        incorrect appropriation.


                                       43
    34. Joint Detainee Information Management System. The Southern Command
        sent MIPR MIPR4K47G6U199 for approximately $573,000 to GSA on
        July 26, 2004, using O&M funds. The Southern Command required various
        hardware and software for the Joint Detainee Information Management
        System. The modification of a system with a cost of $250,000 or more is an
        investment and should be funded with Other Procurement Funds. Therefore,
        the Southern Command used the incorrect appropriation.

Defense Manpower Data Center
    35. Universally Accepted Credentials. The Defense Manpower Data Center
        sent MIPR X14H5A44F136MP, Amendment 1 for $360,000 to GSA on
        September 28, 2004, using O&M funds. The Defense Manpower Data Center
        required commercial off the shelf hardware and software, technical support
        services, and hardware maintenance. GSA had not placed the funds on the
        contract as of December 15, 2004. The procurement for services was
        severable and met a FY 2005 requirement. In addition, the receipt of goods
        after the DoD appropriation expired could not be justified because of delivery
        time, production lead-time, or unforeseen delays. Therefore, no bona fide
        need existed.

    36. Beneficiary Services and Ancillary Support. The Defense Manpower Data
        Center sent MIPR XK3H5A33F273MP for $6 million to GSA on
        September 26, 2003, using O&M funds. The Defense Manpower Data Center
        required highly qualified on-site technical support contractor personnel to
        provide local area network/wide area network engineering and administration,
        Unix system administration support, Oracle database support, technical
        writing, and project planning and management as Defense Management Data
        Center Systems Integration and Technical Support Division staff. GSA
        awarded the contract in October 2004. The procurement for services was
        severable and met a FY 2005 requirement. Therefore, no bona fide need
        existed in the year of the appropriation.

    37. Defense Biometric Identification System. The Defense Manpower Data
        Center sent MIPR XK4H5A44F288MP Amendment 1 for $1.25 million to
        GSA on September 28, 2004, using O&M funds. The Defense Manpower
        Data Center required highly qualified personnel for both ongoing and ad hoc
        Common Access Card failure analysis, durability analysis, and Common
        Access Card Program Support for the Enterprise Defense Biometric
        Identification System and Defense Cross-Certification Identification System.
        The Defense Manpower Data Center sent the MIPR using FY 2004 funds,
        however; as of December 16, 2004, GSA had not placed the funds on the
        contract. FY 2005 funds should have been used for this severable services
        contract.

    38. CAC Vulnerability. The Defense Manpower Data Center sent
        MIPR XX4H5A44F222MP Amendment 1 for $350,000 to GSA on
        August 12, 2004, using O&M funds. The requirement is for the continued
        testing of the Common Access Card vulnerability testing to ensure Common
        Access Card security. As of December 16, 2004, GSA had not obligated the

                                        44
MIPR funds on a contract. Accordingly, the bona fide need rule had not been
met. FY 2004 O&M funds expired on September 30, 2004. Therefore,
FY 2005 funds should have been used for this purchase.




                               45
Appendix E. Potential ADA Violations That
            Occurred Primarily in FY 2005
    Appendix E lists the 69 potential FY 2005 ADA violations as they were noted in
    DoD IG Report D-2007-042, “Potential Antideficiency Act Violations Made
    Through Non-DoD Agencies,” January 2, 2007.


GENERAL SERVICES ADMINISTRATION


U.S. Army Intelligence Center and Fort Huachuca
       1. Interactive Multimedia. The U.S. Army Intelligence Center and Fort
          Huachuca sent MIPRs MIPR5FGSA5W054, MIPR5FGSA5W055,
          MIPR5FGSA5W056, and MIPR5FGSA5W057 (totaling approximately
          $2.61 million) to GSA on March 25, 2005, to obtain multimedia
          courseware development using a special FY 2004 O&M fund that lasts
          2 years. The fund used expired on September 30, 2005. As of
          December 1, 2005, GSA had not awarded a contract. Use of FY 2004
          2-year O&M funds to satisfy FY 2006 requirements does not meet the
          intent of the bona fide needs rule.


Fleet Numerical Meteorology and Oceanography Center
       2. NetCentric FastTrack Services. The Fleet Numerical Meteorology and
          Oceanography Center sent funding document N63134-04-WR-00004 for
          $386,000 to GSA on September 9, 2003, and GSA accepted the funding
          document on September 24, 2003; N63134-04-WR-00004, amendment 1
          for negative $386,000 to GSA on September 29, 2003; N63134-04-WR-
          00004, amendment 2 for $350,000 to GSA on September 29, 2003;
          funding document N63134-04-WR-00004, amendment 3 for negative
          $105,038 to GSA on July 14, 2004; and funding document N63134-04-
          WR-0004, amendment 4 for $156,000 (citing FY 2004 O&M funds) to
          GSA on October 28, 2004. The total of the FY 2004 funding documents
          was $400,962, using O&M Funds. The center was procuring severable
          services consisting of contractor subject matter expertise in exploring
          methods to exploit Web-based information systems. The services being
          procured were severable and the period of performance was from May 26,
          2005, through May 25, 2006, a period that crosses from FY 2005 to
          FY 2006. Use of FY 2004 O&M funds to satisfy FY 2005 requirements
          does not meet the intent of the bona fide needs rule.

       3. Trusted Service Engine. The Fleet Numerical Meteorology and
          Oceanography Center sent funding document N63134-04-WR-00059 for

                                       46
   $850,000 to GSA on September 16, 2004, and funding document N63134-
   04-WR-00059, amendment 1 for a negative $10,035 to GSA on May 26,
   2005, for a total of $839,965 in FY 2004 O&M funds. The contract was
   for services to demonstrate that computer users will be limited to viewing
   information at their security classification level or lower when working on
   multiple networks with information of varying security classification
   levels. The period of performance for the severable services being
   procured was May 25, 2005, through January 31, 2006, a period that
   crosses from FY 2005 to FY 2006. Use of FY 2004 O&M funds to satisfy
   FY 2005 requirements does not meet the intent of the bona fide needs rule.

4. Come and Get It Product Services. The Fleet Numerical Meteorology
   and Oceanography Center sent funding documents N63134-04-WR-00037
   for $240,000 to GSA on July 20, 2004; amendment 1 for $1,256,690 to
   GSA on September 8, 2004; amendment 2 for $595,000 to GSA on
   September 10, 2004; amendment 3 for negative $20,000 to GSA on
   September 16, 2004; amendment 4 for $134,501 to GSA on September 29,
   2004; and amendment 5 for negative $195,574 to GSA on October 28,
   2004. They also sent funding document N63134-04-WR00028 for
   $60,000 to GSA on May 17, 2004, and amendment 1 for $10,000 to GSA
   on September 8, 2004. In FY 2005, the Fleet Numerical Meteorology and
   Oceanography Center sent funding document N6313405WR00701 for
   $33,036 to GSA on November 22, 2004; amendment 1 for $166,963 to
   GSA on December 1, 2004; amendment 2 for negative $33,036 to GSA on
   September 22, 2005; and amendment 3 for negative $13,318 to GSA on
   September 28, 2005. This purchase was funded for $2,080,617 in
   FY 2004 O&M funds and $153,645 in FY 2005 O&M funds. This
   procurement was an upgrade to the Primary Oceanographic Prediction
   system. The Fleet Numerical Meteorology and Oceanography Center
   should have used Other Procurement funds for this purchase, not O&M
   funds. Therefore, the Fleet Numerical Meteorology and Oceanography
   Center used the incorrect appropriation. GSA awarded the contract
   January 4, 2005.

5. Information Assurance. The Fleet Numerical Meteorology and
   Oceanography Center sent funding document N6313404WR00056 for
   $600,000 to GSA on September 15, 2004; funding document
   N6313404WR00064 for $300,000 to GSA on September 29, 2004; and
   funding document N6313404WR00064, amendment 1 for negative
   $136,336 to GSA on October 28, 2004. The funding totaled $763,664 in
   FY 2004 O&M funds, which expired on September 30, 2004. The
   services being obtained were support services for information assurance
   projects dealing with weather forecasts that are being transmitted to the
   warfighter. The period of performance for the severable services being
   procured was January 4, 2005, through January 3, 2006, a period that
   crosses from FY 2005 to FY 2006. Use of FY 2004 O&M funds to satisfy
   FY 2005 requirements does not meet the intent of the bona fide needs rule.




                               47
Air Force Accounting and Finance Office
       6. Kiosks. The Air Force Finance and Accounting Office sent MIPR
          F1AF2B5265G001 for $1,400,000 to GSA on September 22, 2005, using
          FY 2005 O&M funds. The funds were to purchase automated kiosks that
          allow Air Force personnel to make inquiries about and changes to their
          pay and personnel records. The contract for the kiosks, which are
          considered commercial items, was awarded October 25, 2005. The
          Air Force Finance and Accounting Office purchased commercial items
          that will be delivered in FY 2006 using FY 2005 O&M funds. The receipt
          of goods after the DoD appropriation expired could not be justified
          because of delivery time, production lead-time, or unforeseen delays. Use
          of FY 2005 O&M funds to satisfy FY 2006 requirements does not meet
          the intent of the bona fide needs rule.

U.S. Central Command, Air Force
       7. Network Operation Security Center. The U.S. Central Command,
          Air Force sent MIPR F3UTA65168GC01 for $16,999,993 to GSA on
          June 20, 2005; amendment 1 for $1,748,238 on August 30, 2005; and
          amendment 2 for negative $245,046 on September 23, 2005, using a
          2-year FY 2004 O&M fund that expired on September 30, 2005. The
          funds were to purchase severable services supporting the Network
          Operations Security Center including networking, systems modeling,
          performance management, information assurance, routing, and switching.
          A bridge contract was first awarded with a period of performance from
          August 1, 2005, through September 30, 2005. The 2-year FY 2004 funds
          were also used to fund a FY 2006 contract with a period of performance
          form October 1, 2005, through September 30, 2006. Use of FY 2004
          2-year O&M funds to satisfy FY 2006 requirements does not meet the
          intent of the bona fide needs rule.

Joint Information Operations Center
       8. IT and Operations Support (J2). For contracted support at the Joint
          Information Operations Center, the Headquarters, U.S. European
          Command sent MIPR MIPR4JGSAJ2043 for $311,709 to GSA on June 1,
          2004, using FY 2004 O&M funds to partially fund a purchase for IT and
          operational expertise supporting the U.S. European Command, which
          includes integration of current IT, identifying information operations
          applicable databases, and technical expertise. GSA awarded the contract
          November 4, 2004. Use of FY 2004 O&M funds to satisfy FY 2005
          requirements does not meet the intent of the bona fide needs rule.

       9. Network System Support and Administration. The Joint Information
          Operations Center sent MIPR NMIPR04250037 for $875,000 to GSA on
          September 25, 2003; MIPR NMIPR04250550 for $418,788 to GSA on
          September 8, 2004; MIPR NMIPR04250551 for $586,212 to GSA on

                                      48
          September 8, 2004; and MIPR NMIPR04250558 for $6,148 to GSA on
          September 14, 2004, for a total of $1,886,148 in FY 2004 O&M funds.
          The Joint Information Operations Center also sent MIPR
          F2MTKV5244G002 for $1,031,557 to GSA on October 13, 2005, using
          FY 2006 O&M funds. The funds were to purchase severable services
          supporting the command’s network. The funds were used to cover a base
          contract period from September 15, 2003, through September 30, 2004,
          for $849,000; option year 1, from October 1, 2004, through September 30,
          2005, for $891,000; and option year 2, from October 1, 2005, through
          September 30, 2006, for $891,000. Since no FY 2005 funds were sent to
          support option year 1, in FY 2005, it appears the services received that
          year were funded with FY 2004 funds. Use of FY 2004 O&M funds to
          satisfy FY 2005 requirements does not meet the intent of the bona fide
          needs rule.

       10. Personal Video Systems. The Joint Information Operations Center sent
           MIPR F2MTKV5262G001 for $73,912 to GSA on September 19, 2005,
           using FY 2005 O&M funds to purchase various Tandberg equipment,
           including 12 personal video systems. As of January 2006, no contract had
           been awarded for the equipment; therefore, the equipment will be
           delivered in FY 2006 or later. The receipt of goods after the DoD
           appropriation expired cannot be justified because of delivery time,
           production lead-time, or unforeseen delays. Use of FY 2005 O&M funds
           to satisfy FY 2006 requirements does not meet the intent of the bona fide
           needs rule.

       11. Joint Multi-Disciplinary Vulnerability Assessment. The Joint
           Information Operations Center sent MIPR F2MTKV5258G001 for
           $392,494 to GSA on September 20, 2005, using FY 2005 O&M funds.
           The funds were to purchase equipment in support of the Joint Multi-
           Disciplinary Vulnerability Assessment. As of January 2006, no contract
           had been awarded for the equipment; therefore, the equipment will be
           delivered in FY 2006 or later. The receipt of goods after the DoD
           appropriation expired cannot be justified because of delivery time,
           production lead-time, or unforeseen delays. Use of FY 2005 O&M funds
           to satisfy FY 2006 requirements does not meet the intent of the bona fide
           needs rule.

Defense Security Service
       12. National Industrial Security Program Certification and Accreditation
           Tools. The Defense Security Service sent MIPR NMIPR04970376 for
           $310,000 to GSA on September 17, 2004, using FY 2004 O&M funds.
           The funds were to purchase the testing of automated certification and
           accreditation tools, program management support, and independent
           verification and validation of automated tools. The contract for these
           severable services was awarded on August 25, 2005, for a period of
           performance of August 26, 2005, through August 25, 2006, a period that
           crosses from FY 2005 to FY 2006. Use of FY 2004 O&M funds to satisfy
           FY 2005 requirements does not meet the intent of the bona fide needs rule.

                                       49
DEPARTMENT OF THE INTERIOR


Department of Defense, Office of Inspector General
        13. DOI [Department of the Interior] Contract NBCHD020037. Potential
            bona fide needs rule violations may have occurred for four orders issued
            by Southwest Acquisition Branch contracting officials under contract
            NBCHD020037. The DoD OIG ordered various types of computer
            equipment. The National Business Center, Southwest Acquisition Branch
            contracting officials awarded the five orders, for a total of $396,724,
            between September 25 and September 29, 2005. For three of the orders,
            the DoD OIG did not receive the equipment until FY 2006. Therefore,
            three separate potential ADA violations may have occurred. In addition,
            one potential ADA violation may have occurred for one other order
            because the order was awarded at the end of FY 2005 and the delivery
            date could not be determined. There was no evidence that a long lead-
            time was required to purchase these items, that the items were needed to
            replenish the inventory, or that there was an unforeseen delay in
            purchasing these items. Use of FY 2005 O&M funds to satisfy FY 2006
            requirements does not meet the intent of the bona fide needs rule.

Office of the Administrative Assistant to the Secretary
  of the Army
        14. DOI Contract 41181. A GovWorks contracting officer awarded contract
            action 41181 to purchase decision agent network equipment for the
            Pentagon Telecommunications Service Center for $108,196. DOI contract
            action 41181, awarded on December 21, 2004, was partially funded for
            $72,033, using FY 2001 Army O&M funds that expired on September 30,
            2001. The three MIPRs include MIPR1MINTPR070 for $6,831;
            MIPR1JDIT0N046 for $26,399; and MIPR1KINTWS058 for $38,803.
            MIPR MIPR4MINTMM125 for $36,162, using FY 2004 O&M funds was
            also used to fund the purchase. The equipment consisted of commercial
            items and there was no evidence that a long lead-time was required to
            purchase these items, or that the items were needed to replenish the
            inventory, or that there was an unforeseen delay in purchasing these items.
            Use of FY 2001 O&M funds to satisfy FY 2005 requirement does not
            meet the intent of the bona fide needs rule.

        15. DOI Contract 41181, Modification 0001. A GovWorks contracting
            officer issued modification 0001 to contract action 41181 on January 18,
            2005. Under modification 0001, the contracting officer removed $26,399
            from one of the original Army FY 2001 O&M MIPRs used to fund
            contract action 41181 and replaced it with funds from four other expired
            Army O&M MIPRs. The four MIPRs include MIPR MIPR0MGSAIT092
            for $160, using FY 2000 O&M funds; MIPR MIPR1MITST0074 for
            $3,176, using FY 2001 O&M funds; and MIPRs MIPR4LINTMM111 for
                                        50
   $11,393 and MIPR4MINTMM130 for $11,669, using FY 2004 O&M
   funds. Use of FYs 2000, 2001, and 2004 O&M funds to satisfy FY 2005
   requirements does not meet the intent of the bona fide needs rule.

16. DOI Contract 40966. A GovWorks contracting officer awarded contract
    action 40966 for $521,679 to purchase 71 computer servers for the
    Pentagon Telecommunications Service Center. GovWorks awarded
    contract action 40966 on November 30, 2004, funded with MIPR
    MIPR4MINIMM125, using FY 2004 Army O&M funds that expired on
    September 30, 2004. The computer servers were commercial items and
    there was no evidence that a long lead-time was required to purchase these
    items, or that the items were needed to replenish the inventory, or there
    was an unforeseen delay in purchasing these items. Use of FY 2004
    O&M funds to satisfy FY 2005 requirement does not meet the intent of the
    bona fide needs rule.

17. DOI Contract 41063. On November 24, 2004, a GovWorks contracting
    officer awarded contract action 41063 for $3,840 to purchase an IBM
    Server Warranty for the Pentagon Telecommunications Center. Contract
    action 41063 was partially funded with O&M funds that had expired.
    MIPR MIPR2MINTMM081 for $158 and MIPR MIPR2MINTMM077 for
    $1,429 used FY 2002 O&M funds that expired on September 30, 2002.
    MIPR MIPR4BINTMM012 for $1,382 used FY 2004 Army O&M funds
    that expired on September 30, 2004. In addition, MIPR
    MIPR2LINTMM075 for $870 used FY 2002 Army other procurement
    funds that expired on September 30, 2004. Use of FY 2002 and FY 2004
    O&M funds and FY 2002 other procurement funds to satisfy a FY 2005
    requirement does not meet the intent of the bona fide needs rule.

18. DOI Contract 41432. On February 8, 2005, a GovWorks contracting
    officer awarded contract action 41432 for $7,476 to purchase three
    42-inch high-definition plasma televisions for the Pentagon
    Telecommunications Center. Contract action 41432 was funded with
    MIPR MIPR4MINTMM130, using FY 2004 Army O&M funds that
    expired on September 30, 2004. The equipment consisted of commercial
    items and there was no evidence that a long lead-time was required to
    purchase these items, or that the items were needed to replenish the
    inventory, or that there was an unforeseen delay in purchasing these items.
    Use of FY 2004 O&M funds to satisfy FY 2005 requirements does not
    meet the intent of the bona fide needs rule.

19. DOI Contract 1435-04-02-CT-85531, Order 43387. The Pentagon
    Telecommunication Center issued multiple MIPRs to purchase technical
    and functional support services. Of the 17 MIPRs used,
    MIPR MIPR3LINTMM101 used $1,038,376 with FY 2003 O&M funds,
    which expired on September 30, 2003. The Pentagon Telecommunication
    Center sent seven MIPRs (MIPR4GINTMM058, MIPR4GINTMM059,
    MIPR4HINTMM069, MIPR4JINTMM072, MIPR4JINTMM080,
    MIPR4JINTMM086, and MIPR4JINTMM089), totaling $313,320, using
    FY 2004 O&M funds, which expired on September 30, 2004. In addition,
    six other MIPRs (MIPR4KINTMM093, MIPR4KINTMM095,

                                51
   MIPR4KINTMM096, MIPR4LINTMM115, MIPR4MINTMM123, and
   MIPR4MINTMM129) totaling $1,046,834 may be potential ADA
   violations. GovWorks awarded contract action 43387, a multiple-award
   order, on June 30, 2005. The value of order 43387 was $3,908,449 and
   the period of performance was from July 1, 2005, through December 31,
   2005. Use of FY 2003 and FY 2004 O&M funds to satisfy FY 2005
   requirements does not meet the intent of the bona fide needs rule.

20. DOI Contract 1435-04-02-CT-85531, Order 41160. On December 30,
    2004, a GovWorks contracting officer awarded contract action 41160, a
    multiple-award order for $555,738 to purchase a transitional enhanced
    communications gateway system and associated installation and support
    for the Pentagon Telecommunications Center. The delivery of the system
    was no later than 120 days from the date of contract action 41160,
    December 30, 2004. A GovWorks contracting officer used funds from
    five MIPRs, totaling $555,738, to fund the contract. The Pentagon
    Telecommunications Center partially funded the purchase with MIPR
    MIPR3MINTMM113, for $120,000, using FY 2003 O&M funds; MIPR
    MIPR3MINTMM112 for $120,000, using FY 2003 O&M funds; MIPR
    MIPR3MINTMM114 for $200,000, using FY 2003 funds. FY 2003
    O&M funds expired on September 30, 2003. Use of FY 2003 O&M funds
    to satisfy a FY 2005 requirement does not meet the intent of the bona fide
    needs rule. This purchase was also funded with MIPR MIPR-2-F-D0IIT-
    045, for $95,709 using FY 2002 Other Procurement funds. FY 2002
    Other Procurement funds expired September 30, 2004. Use of FY 2002
    through 2004 funds to satisfy a FY 2005 requirement does not meet the
    intent of the bona fide needs rule. According to the contract file, $492,791
    of the $555,739 contract action value was related to equipment; however,
    the contracting officer only obligated $115,738 of Other Procurement
    funds under two MIPRs to fund the equipment portion of the purchase.
    The remaining $377,053.20 of equipment was funded with O&M funds
    that were also used to fund contract action 41160. Therefore, an incorrect
    appropriation, O&M, was used to partially fund this purchase. Other
    Procurement funds should have been used.

21. DOI Contract 44435. On August 29, 2005, a GovWorks contracting
    officer awarded contract action 44435 for $37,643 to purchase 40 laser jet
    printers for the Pentagon Telecommunications Center. Contract
    action 44435 was funded with funds from MIPR4GINTMM054, using
    FY 2004 Army O&M funds that expired on September 30, 2004. The
    equipment consisted of commercial items and there was no evidence that a
    long lead-time was required to purchase these items, or that the items were
    needed to replenish the inventory, or that there was an unforeseen delay in
    purchasing these items. The delivery date for these items was 30 days
    after the date of the order. Use of FY 2004 Army O&M funds to satisfy
    FY 2005 requirements does not meet the intent of the bona fide needs rule.

22. DOI Contract 41242. On December 10, 2004, a GovWorks contracting
    officer awarded contract action 41242 for $113,388 to purchase
    75 Microsoft Windows Server Enterprise 2003 software licenses for the
    Pentagon Telecommunications Center. The contracting officer used

                                 52
          MIPR4MINTMM125, with FY 2004 Army O&M funds that expired on
          September 30, 2004. The equipment consisted of commercial items and
          there was no evidence that a long lead-time was required to purchase these
          items, or that the items were needed to replenish the inventory, or that
          there was an unforeseen delay in purchasing these items. Use of FY 2004
          O&M funds to satisfy requirements in FY 2005 does not meet the intent of
          the bona fide needs rule.


Army Training and Doctrine Command
       23. DOI Contract 43852. A GovWorks contracting officer awarded contract
           action 43852 for $94,075 to purchase services for the Army Training
           Support Center, related to a training ammunition calculator, used to
           calculate ammunition requirements for training purposes at Army
           locations. MIPR MIPR4KBELG3066 issued on July 12, 2004, funded
           contract action 43852. The period of performance of the contract action
           was from July 31, 2005, until 3 months after receipt of order, or
           October 31, 2005. Use of FY 2004 Army O&M funds to satisfy a
           requirement in FY 2005 does not meet the intent of the bona fide needs
           rule.


U.S. Army Intelligence and Security Command
       24. DOI Blanket Purchase Agreement 40699, Task Order 41801,
           Modification 0002. On May 5, 2005, a GovWorks contracting officer
           issued modification 0002 under contract action 41801 for $920,970, to add
           funding to purchase services related to the U.S. Air Force Horned Owl
           Program for the U.S. Army Program Management Office Airborne
           Reconnaissance Low. DOI contracting officials used a portion of the
           funds from two existing DoD MIPRs to fund modification 0002. MIPR
           MIPR4DINT04166, from the U.S. Army Intelligence and Security
           Command for $120,000, was issued on January 10, 2004, using Army
           FY 2004 O&M funds, which expired on September 30, 2004. Use of
           FY 2004 O&M funds to satisfy requirements in FY 2005 does not meet
           the intent of the bona fide needs rule.


Naval Sea Systems Command
       25. DOI Contract 40385. On October 15, 2004, a GovWorks contracting
           officer awarded contract action 40385 for $3,390 to purchase 226 weapon
           cleaning kits for the Naval Sea Systems Command Fleet
           Antiterrorism/Force Protection. Contract action 40385 was funded with
           MIPR N6553804MP00018, using FY 2004 Navy O&M funds, which
           expired on September 30, 2004. There was no evidence that a long lead-
           time was required to purchase these items, or that the items were needed

                                      53
   to replenish the inventory, or that there was an unforeseen delay in
   purchasing these items since the items were to be delivered by
   November 26, 2004. Use of FY 2004 O&M funds to satisfy FY 2005
   requirements does not meet the intent of the bona fide needs rule.

26. DOI Contract 43270. On May 20, 2005, a GovWorks contracting officer
    awarded contract action 43270 for $61,112 to purchase 50 sets of
    T1 special body armor and 100 gamma plates for Naval Sea Systems
    Command Fleet Antiterrorism/Force Protection. Contract action 43270
    was funded with MIPR N6553804MP00018, using FY 2004 Navy O&M
    funds that expired on September 30, 2004. There was no evidence that a
    long lead-time was required to purchase these items or that there was an
    unforeseen delay in purchasing these items since the items were to be
    delivered by June 17, 2005. There was evidence, though, that the purpose
    of contract 43270 was to replenish inventory; however, the evidence was
    not convincing. Documentation in the contract files stated that the
    “subject order is to replenish current stock that is distributed to various
    units.” Use of FY 2004 Navy O&M funds that expired on September 30,
    2004, were used to fund this purchase on May 20, 2005, or almost
    8 months after the end of FY 2004.

27. DOI Contract 40387. On October 17, 2004, a GovWorks contracting
    officer awarded contract action 40387 for $10,170 to purchase 226 pairs
    of gloves and goggles for Naval Sea Systems Command Fleet
    Antiterrorism/Force Protection. Contract action 40387 was funded from
    MIPR N6553804MP00018, using FY 2004 Navy O&M funds that expired
    on September 30, 2004. There was no evidence that the items were
    needed to replenish the inventory, or a long lead-time was required to
    purchase these items, or that there was an unforeseen delay in purchasing
    these items. The items were to be delivered by November 26, 2004. Use
    of FY 2004 O&M funds to satisfy FY 2005 requirements does not meet
    the intent of the bona fide needs rule.

28. DOI Contract 43280. On May 17, 2005, a GovWorks contracting officer
    awarded contract action 43280 for $1,328 to purchase 15 pairs of goggles
    and 15 balaclavas for Naval Sea Systems Command Fleet
    Antiterrorism/Force Protection. Contract action 43280 was funded from
    MIPRN6553804MP00018, using FY 2004 Navy O&M funds that expired
    on September 30, 2004. There was no evidence that the items were
    needed to replenish the inventory, or a long lead-time was required to
    purchase these items, or that there was an unforeseen delay in purchasing
    these items. The items were to be delivered by November 26, 2004. Use
    of FY 2004 O&M funds to satisfy FY 2005 requirements does not meet
    the intent of the bona fide needs rule.

29. DOI Contract 41907. On January 24, 2005, a GovWorks contracting
    officer awarded contract action 41907 for $3,168 to purchase 132 radio
    pouches for Naval Sea Systems Command Fleet Antiterrorism/Force
    Protection. Contract action 41907 was funded from MIPR
    N6553804MP00018, citing FY 2004 Navy O&M funds that expired on
    September 30, 2004. There was no evidence that the items were needed to

                                54
          replenish the inventory, or a long lead-time was required to purchase these
          items, or that there was an unforeseen delay in purchasing these items.
          The items were to be delivered by February 11, 2005. Use of FY 2004
          O&M funds to satisfy FY 2005 requirements does not meet the intent of
          the bona fide needs rule.

       30. DOI Contract 42912. On April 19, 2005, a GovWorks contracting
           officer awarded contract action 42912 for $71,137 to purchase 40 desert
           camouflage body armor systems for Naval Sea Systems Command Mobile
           Security Force Command. Contract action 42912 was funded from MIPR
           N6553803MP00013, using Navy FY 2003 O&M funds that expired on
           September 30, 2003. The funds expired 1 year and 7 months before they
           were used to fund the contract. Use of FY 2003 O&M funds to satisfy
           FY 2005 requirements does not meet the intent of the bona fide needs rule.

       31. DOI Contract 43329. On May 20, 2005, a GovWorks contracting officer
           awarded contract action 43329 for $1,158 to purchase 20 pairs of
           kneepads and 20 pairs of elbow pads for Naval Sea Systems Command
           Mobile Security Force Command. Contract action 43329 was funded
           from MIPR N6553804MP00018, using Navy FY 2004 O&M funds that
           expired on September 30, 2004. There was no evidence that the items
           were needed to replenish the inventory, or a long lead-time was required
           to purchase these items, or that there was an unforeseen delay in
           purchasing these items. The items were to be delivered by June 27, 2005.
           Use of FY 2004 O&M funds to satisfy FY 2005 requirements does not
           meet the intent of the bona fide needs rule.

       32. DOI Contract 43349. On May 24, 2005, a GovWorks contracting officer
           awarded contract action 43349 for $1,369 to purchase 12 specialized bags
           for Naval Sea Systems Command Mobile Security Force Command.
           Contract action 43349 was funded with MIPR N6553804MP00018, using
           Navy FY 2004 O&M funds that expired on September 30, 2004. There
           was no evidence that the items were needed to replenish the inventory, or
           a long lead-time was required to purchase these items, or that there was an
           unforeseen delay in purchasing these items. The items were to be
           delivered by June 27, 2005. Use of FY 2004 O&M funds to satisfy
           FY 2005 requirements does not meet the intent of the bona fide needs rule.


Naval Facilities Engineering Command Headquarters
       33. DOI Blanket Purchase Agreement 32178, Task Order 73545. A
           GovWorks contracting official used FY 2003 O&M funds for task order
           73545, which was to purchase technical services related to the
           development of geospatial representations of Navy installation boundaries
           for the Naval Facilities Engineering Command. The period of
           performance for the contract action was October 1, 2003, through
           September 30, 2004. The funds on NMIPR039209671, totaling
           $1,559,085, sent on August 14, 2003, were only available for use for
           12 months, ending August 18, 2004. At least some of the funds were used

                                       55
          beyond August 18, 2004, since no additional funds were added to the task
          order until April 6, 2005. Use of FY 2003 O&M funds to satisfy future
          requirements does not meet the intent of the bona fide needs rule.


Counterintelligence Field Activity
       34. DOI Contract 1435-04-03-RC-73024 and DOI Contract 1435-04-03-
           RC-70941. CIFA did not follow the required procedures for obtaining
           office space in the National Capital Region. Specifically, the 10-year,
           $100 million lease was obtained through a Section 8(a) contractor rather
           than GSA, as required by statute. The lack of authority for CIFA to enter
           the lease violated many statutes, including the ADA, and circumvented the
           required congressional review and approval process.

                  Lack of Authority to Enter the Leases. Section 3307, title 40,
          United States Code establishes a prospectus threshold authority for leases
          of $2.21 million for FY 2003. Only GSA is permitted to enter leases in
          excess of the threshold. A potential ADA violation may have occurred
          because the lease agreement required lease payments of at least
          $6.575 million per year, which is above the $2.21 million threshold.
          Because CIFA did not follow the prescribed procedure for obtaining lease
          space, CIFA circumvented required Congressional notification and
          approval process, as prescribed in 10 U.S.C. 2662(a)(2),
          40 U.S.C. 3307(a), and Federal Management Regulation
          section 102-73.65.

                   Lack of Authority To Make Building Alterations. Section 3307,
          title 40, United States Code also establishes a prospectus threshold
          authority for the construction and alteration of leased buildings. The
          prospectus threshold for lease space alterations in FY 2003 was
          $1.1066 million. A potential ADA violation may have occurred because
          CIFA made leased space alternations of $14.7 million under
          contract 1435-04-03-RC-70941 during FY 2003 and did not obtain the
          required congressional approval. The prospectus threshold for lease space
          alternations in FY 2004 was $1.1450 million. A potential ADA violation
          may have occurred because CIFA made space alterations of at least
          $7.9 million under contract 1435-04-03-RC-3024 during FY 2004 and did
          not obtain the required congressional approval.

                  Potential Violations of the Bona Fide Needs Rule. The TKC
          communications contract has provisions that permitted CIFA to repay the
          costs for its building alterations incurred during FY 2003 over the life of
          the lease. The contractor performed the construction during FY 2003, but
          permitted CIFA to pay for the construction over the duration of the lease.
          The contract had an amortization schedule showing the interest charges.
          A potential bona fide need violation may have occurred because CIFA
          paid the costs of the building alternations over the life of the loan instead
          of paying for the alterations in the fiscal year in which the alterations
          occurred. Additionally, the terms of the contract created a liability to the

                                       56
           Government before the Congress had appropriated the funds, which
           violated 31 U.S.C. 1341(a)(1)(A) and the U.S. Constitution, Article 1,
           Section 9, clause 7. Similarly, the contracting clause for termination of
           the lease required payment of any remaining balance on the building
           alteration loan and payment of rent for the next 12 months. This contract
           provision also violated 31 U.S.C 1341(a)(1)(A) and the U.S. Constitution,
           Article 1, Section 9, clause 7.

                  Potential Violation of Purpose Statute. CIFA paid for its
           building alterations using O&M funds. However, military construction
           funds should have been used. The failure to use military construction
           funds potentially violated 31 U.S.C. 1301 and 10 U.S.C 2805. Therefore,
           CIFA used an incorrect appropriation.


NATIONAL AERONAUTICS AND SPACE
  ADMINISTRATION


Office of Naval Intelligence
        35. Order N66001-05-F-Q174. A DoD contracting officer awarded purchase
            order N66001-05-F-Q174 to purchase various computer hardware, such as
            workgroup switches for the Navy for $64,271, using FY 2005 Navy
            O&M funds, which expired on September 30, 2005. Both the Office of
            Naval Intelligence and Joint Systems Integration Command funded the
            purchase. The order was awarded on September 19, 2005, but the
            hardware was not scheduled to be delivered until October 7, 2005.
            Deliveries of the goods were received from October 26 through
            December 27, 2005. The receipt of goods after the DoD appropriation
            expired could not be justified because of production lead-time or
            unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
            requirements does not meet the intent of the bona fide needs rule.


Assistant Secretary of the Air Force (Financial Management
  and Comptroller)
        36. Order HC1047-05-F-4552. A DoD contracting officer awarded purchase
            order HC1047-05-F-4552 for IT hardware and software for $983,878.
            The order was awarded using FY 2005 Air Force O&M funds. Because
            the order exceeded $250,000, procurement funds should have been used.
            Therefore, the Air Force used an incorrect appropriation. Also, the order
            was awarded on September 28, 2005, and scheduled delivery for
            October 28, 2005. The items were not delivered until November 4, 2005.
            The receipt of goods after the DoD appropriation expired could not be
            justified by production lead-time or unforeseen delays. Use of FY 2005

                                       57
          O&M funds to satisfy a FY 2006 requirement does not meet the intent of
          the bona fide needs rule.


U.S. Central Command
       37. Order FA4814-05-F-A814. A DoD contracting officer awarded purchase
           order FA41814-05-F-A814 for various computer equipment. The order
           purchased computer equipment, such as the Gateway E6300 personal
           computer. The value of the order was $758,442 and used FY 2005
           Air Force O&M funds, which expired on September 30, 2005. Because
           the value of the order exceeded $250,000, procurement funds should have
           been used. Therefore, the U.S. Central Command used incorrect
           appropriation. Also, the order was awarded on September 19, 2005, and
           scheduled delivery for October 19, 2005. The equipment was not
           delivered until November 3, 2005. The receipt of goods after the DoD
           appropriation expired could not be justified by production lead-time or
           unforeseen delays. Use of FY 2005 O&M funds to satisfy a FY 2006
           requirement does not meet the intent of the bona fide needs rule.

       38. Order FA4814-05-F-A731. A DoD contracting officer awarded purchase
           order FA4814-05-F-A731 for Host Base Intrusion Detection System
           Components. The value of the order was $507,271 and used FY 2005
           Air Force O&M funds. Because the value of the order exceeded
           $250,000, procurement funds should have been used. Therefore, the
           U.S. Central Command used an incorrect appropriation. Also, the order
           was awarded on September 9, 2005, and some of the goods were not
           delivered until October 17, 2005. The receipt of goods after the DoD
           appropriation expired could not be justified by production lead-time or
           unforeseen delays. Use of FY 2005 O&M funds to satisfy a FY 2006
           requirement does not meet the intent of the bona fide needs rule.

       39. Order FA4814-05-F-A863. A DoD contracting officer awarded purchase
           order FA4814-05-F-A863 to purchase various computer equipment for the
           U.S. Central Command for $46,854 using FY 2005 Air Force O&M funds.
           The order was awarded on September 22, 2005, but the equipment was not
           scheduled to be delivered until November 4, 2005. However, delivery of
           the goods was made on December 13, 2005. The receipt of goods after the
           DoD appropriation expired could not be justified by production lead-time
           or unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
           requirements does not meet the intent of the bona fide needs rule.


U.S. Special Operations Command
       40. Order FA4814-05-F-A154. A DoD contracting officer awarded purchase
           order FA4814-05-F-A154 for a file storage/server system for $738,383.
           The U.S. Special Operations Command (USSOCOM) used FY 2005
           Defense-wide O&M funds. Because the value of the order exceeded

                                      58
   $250,000, procurement funds should have been used. Therefore, the
   USSOCOM used incorrect appropriation.

41. Order FA4814-05-F-A717. A DoD contracting officer awarded purchase
    order FA4814-05-F-A717 for $159,501, to purchase software using
    FY 2005 Defense-wide O&M funds for USSOCOM. The order was
    awarded on September 8, 2005, and the delivery was scheduled for
    October 8, 2005. The software was delivered on October 7, 2005. The
    receipt of goods after the DoD appropriation expired could not be justified
    by production lead-time or unforeseen delays. Use of FY 2005 O&M
    funds to satisfy FY 2006 requirements does not meet the intent of the bona
    fide needs rule.

42. Order FA4814-05-F-A860. A DoD contracting officer awarded purchase
    order FA4814-05-F-A860 for $105,997 to purchase a server, using
    FY 2005 Defense-wide O&M funds for USSOCOM. The order was
    awarded on September 20, 2005, but the server was not scheduled to be
    delivered until October 20, 2005. Delivery of the goods was received
    October 4, 2005. The receipt of goods after the DoD appropriation
    expired could not be justified by production lead-time or unforeseen
    delays. Use of FY 2005 O&M funds to satisfy FY 2006 requirements
    does not meet the intent of the bona fide needs rule.

43. Order FA4814-05-F-A917. A DoD contracting officer awarded purchase
    order FA4814-05-F-A917 for $31,810 to purchase graphic hardware for
    USSOCOM, using FY 2005 Air Force O&M funds. The order was
    awarded on September 26, 2005, but the goods were not scheduled to be
    delivered until October 24, 2005. However, delivery of the goods was
    received on December 7, 2005. The receipt of goods after the DoD
    appropriation expired could not be justified by production lead-time or
    unforeseen delays. Use of FY 2005 O&M funds to satisfy FY 2006
    requirements does not meet the intent of the bona fide needs rule.

44. Order FA4814-05-F-A895. A DoD contracting officer awarded purchase
    order FA4814-05-F-A895 for computer hardware, software, and licenses
    for $479,630. This order was funded with FY 2005 Defense-wide
    O&M funds. Though the value of the order exceeded $250,000,
    O&M funds were correctly used because the goods were not part of an
    overall system and no individual item cost over $250,000. However, the
    order was awarded on September 22, 2005, and scheduled delivery for
    October 22, 2005. The goods were delivered through November 8, 2005.
    The receipt of goods after the DoD appropriation expired could not be
    justified by production lead-time or unforeseen delays. Use of FY 2005
    O&M funds to satisfy FY 2006 requirements does not meet the intent of
    the bona fide needs rule.




                                59
Defense Information Systems Agency
       45. Order HC1047-05-F-4561. A DoD contracting officer awarded purchase
           order HC1047-05-F-4561 to purchase a Sun database server for $115,829
           for the Defense Information Systems Agency, using FY 2005 Defense-
           wide O&M funds. The contracting officer awarded the order on
           September 30, 2005, and scheduled delivery for November 1, 2005. The
           server was delivered on October 27, 2005. The receipt of goods after the
           DoD appropriation expired could not be justified by production lead-time
           or unforeseen delays. Use of FY 2005 O&M funds to satisfy an FY 2006
           requirement does not meet the intent of the bona fide needs rule.

       46. Order HC1013-05-F-2810. A DoD contracting officer awarded purchase
           order HC1013-05-F-2810 to purchase Standardized Tactical Entry Point
           Information Assurance Tools, which included assorted hardware and
           software for $4,149,461, using FY 2005 Defense-wide O&M funds for the
           Defense Information Systems Agency. Because the value of the order
           exceeded $250,000, procurement funds should have been used. DoD
           contracting officers awarded the order on August 25, 2005, with a
           scheduled delivery for 21 days from award, September 15, 2005.
           However, the goods were received on November 15, 2005. The receipt of
           goods after the DoD appropriation expired could not be justified because
           standard commercial off-the-shelf items are items readily available from
           other sources. The order was competed among all 8 NASA Scientific and
           Engineering Workstation Procurement vendors in class 12. Use of
           FY 2005 funds to satisfy a FY 2006 requirement does not meet the intent
           of the bona fide needs rule.


Defense Security Service
       47. Order HC1013-05-F-2848. A DoD contracting officer awarded purchase
           order HC1013-05-F-2848 for a 3-year lease of Sun equipment and other
           miscellaneous equipment for $10,918,072. The Defense Security Service
           used FY 2005 Defense-wide O&M funds. Because the value of the order
           exceeded $250,000, procurement funds should have been used. Therefore,
           the Defense Security Service used an incorrect appropriation.


Counterintelligence Field Activity
       48. Order HC1013-05-F-3006. A DoD contracting officer awarded purchase
           order HC1013-05-F-3006 to purchase licenses, maintenance, and technical
           support services for $500,000, using FY 2005 O&M funds for the CIFA.
           According to CIFA personnel, Congress provided O&M funds specifically
           for the purchase. The contracting officer awarded the order on
           September 21, 2005, and did not schedule a delivery date. The goods
           were delivered on January 6, 2006, more than 3 months after the end of

                                      60
          FY 2005. The receipt of goods after the DoD appropriation expired could
          not be justified because of production lead-time or unforeseen delays.
          This order also included severable services that commenced December 13,
          2005. Use of FY 2005 funds to satisfy a FY 2006 requirement does not
          meet the intent of the bona fide needs rule.


DEPARTMENT OF THE TREASURY


Office of the Under Secretary of Defense for Personnel
  and Readiness
       49. Counseling Services. The Office of the Under Secretary of Defense for
           Personnel and Readiness, Quality of Life Office issued MIPR
           DERM40092A329V for $19,000,000 on July 28, 2004, using FY 2004
           O&M funds for counseling services in support of families as a result of the
           Global War on Terrorism and Iraqi Freedom. FedSource accepted the
           MIPR on July 30, 2004. The FedSource, Beaufort office issued task order
           contract number BEA002178 for $18,357,487 on August 5, 2004. Task
           order BEA002178 was cancelled on December 16, 2005, leaving a
           $14,990,411 fund balance. Task order BEA002638 for $14,483,489 was
           issued on March 29, 2005, to continue the counseling services. The task
           order contract period of performance was March 14, 2005, through
           December 31, 2005. The FY 2004 funds were applied to reissue a task
           order in FY 2005. The FY 2004 funds were put on the reissued task order
           contract almost 8 months after the funds were accepted by FedSource,
           Beaufort, and almost 6 months into FY 2006. The contract period of
           performance extends past 12 months from the MIPR acceptance date.
           Further, the elapsed 8 months from MIPR fund acceptance to the
           BEA00238 task order contract award is an unreasonable time; therefore,
           no bona fide need exists.


Fort McCoy Army Base, Directorate Support Services
       50. Construction of Main Gate Canopy and Inspection Building. The
           Directorate of Support Services at Fort McCoy sent FedSource
           seven MIPRs totaling $987,846, using FY 2003 Army Reserve O&M
           funds to construct a canopy and vehicle inspection building at the main
           gate. The basic contract in the amount of $896,930 was for the canopy
           and the inspection building. The canopy and inspection building were
           initially funded by MIPR3MDTMSCNPY for $268,629 issued on
           September 30, 2003, and MIPR3VEHNISP01 for $665,703 issued on
           September 30, 2003. The amount obligated on the main gate totaled
           $987,935 which exceeds the limit of $750,000 using O&M funds for
           minor construction; therefore, military construction appropriated funds

                                       61
   should have been cited. The Directorate of Support Services used an
   incorrect appropriation.

51. Renovation of Building 454 (Barracks). Fort McCoy Army Base,
    Directorate of Support Services building renovation exceeded the
    $750,000 limit using O&M funds for minor construction. MIPR
    MIPR4MDFE00107 for $813,767 was issued September 17, 2004, using
    FY 2004 Army Reserve O&M funds. The MIPR was for renovation of
    Building 454 into basic officer quarters, including improvements such as
    additional bathrooms to include all new components. FedSource issued
    the basic task order contract number LOS013032 for $762,883 on
    September 28, 2004. The building improvements supported categorizing
    this project as new construction. The total amount obligated for the
    building, $820,355, exceeded the $750,000 limit use of O&M funds for
    minor construction. In addition, a second building (453) was being
    renovated with the same requirements and purpose. See purchase
    number 52 below. As a result, buildings 454 and 453 should have been
    combined as one project and used military construction funds instead of
    O&M funds. The combined cost of the work on the two buildings was
    $1,498,097. The project was split to avoid the long approval process
    necessary to obtain military construction funds. Therefore, the Directorate
    of Support Services at Fort McCoy used incorrect appropriations.

52. Renovation of Building 453. Building 453 was being renovated from a
    barracks into a visitor officer quarters at Fort McCoy. The Building 453
    layout was reconfigured and improvements made that supported new
    construction, including new bathrooms, fixtures, counters, tubs, and
    closets. Improvements resulted in construction versus repair. The
    Directorate of Support Services personnel at Fort McCoy exceeded the
    minor construction $750,000 dollar threshold by sending
    MIPR3MDFE00085 for $784,252 on September 24, 2003, and an
    amendment for $2,493 on July 12, 2004, to FedSource. The total cost of
    $786,746 used O&M funds. Although the task order contract was
    awarded by FedSource on October 2, 2003, for $735,214, the amount did
    not include the FedSource fee. The planning for both buildings was in
    2003 and requests for military construction funds should have occurred
    then. Therefore, the Directorate of Support Services at Fort McCoy used
    an incorrect appropriation.

53. Construction of Maintenance Buildings. The Directorate of Support
    Services at Fort McCoy did not combine task order LOS007993 for
    $684,639 and task order LOS007994 for $684,639 that were both issued
    by FedSource on September 12, 2003, to construct four new metal
    prefabricated maintenance buildings. The total contract cost for the two
    task orders was $1,369,278. Each of the two task orders was for the
    construction of two maintenance buildings; however, bid proposal data
    established the provision for bidding up to four buildings. Therefore,
    one task order contract should have been issued versus splitting the
    project. Issuing two separate task orders resulted in keeping the contract
    award below the $750,000 military construction threshold. The combined
    contract for the two task order contracts exceeded the $750,000 O&M

                                62
          minor military construction threshold. MIPR MIPR3MDFE00078 for
          $730,304 was issued September 9, 2003, and amendment 1 for $8,331 was
          issued on December 29, 2004, for a total of $738,635 to fund two
          maintenance buildings under task order contract LOS007993. Task order
          LOS007994 for two other buildings was funded with MIPR3MDFE00079
          for $730,304, issued on September 9, 2003. All buildings were built by
          the same contractor. Splitting of construction projects occurred to
          circumvent the cost limitation of $750,000 for minor construction.
          Therefore, the Directorate of Support Services at Fort McCoy used an
          incorrect appropriation.

Naval Engineering Facilities Command, Southwest
       54. Transportation Relocation (Task Order LOS013626). The Naval Base
           Ventura County Public Works is now the Naval Engineering Facilities
           Command, Southwest. The Naval Engineering Facilities Command,
           Southwest acquired professional services through FedSource for the
           relocation of the heavy-duty truck hoist support. The Naval Engineering
           Facilities Command, Southwest issued four MIPRs totaling $248,000 in
           September 2004, using FY 2004 O&M funds to obtain services and
           deliverables through the performance of the relocation of heavy-duty truck
           hoist. The MIPRs, N6923204MPX8220, N6923204MPX8221,
           N6923204MPX8222, and N6923204MPX8230, were accepted in
           September 2004. FY 2004 O&M funds partially funded a contract
           awarded on January 8, 2005, for $177,155. Use of FY 2004 O&M funds
           to satisfy FY 2005 requirements does not meet the intent of the bona fide
           needs rule.

       55. Valve Replacement (Task Order LOS014128). The Naval Engineering
           Facilities Command, Southwest acquired professional services through
           FedSource using MIPR N6923204MPX8141 for $95,000, issued on
           May 17, 2004. This was used to purchase water valve replacement
           support in the housing area at Naval Base Ventura County, Point Mugu,
           California. FedSource issued task order contract award LOS014128 for
           $81,056 on March 25, 2005. Approximately 10 months lapsed between
           the MIPR acceptance and contract award. Use of FY 2004 O&M funds to
           satisfy FY 2005 requirements does not meet the intent of the bona fide
           needs rule.

       56. Design and Acquisition Support (Task Order LOS013101).
           The Naval Engineering Facilities Command, Southwest acquired
           professional services through FedSource for Design and Acquisition
           Support. The Naval Engineering Facilities Command, Southwest issued
           MIPR N6923204MPU8222 for $227,939 and amendment 1 for $9,876 on
           September 17, 2004. The basic MIPR was accepted on September 22,
           2004. The MIPRs cited FY 2004 O&M funds, which expired on
           September 30, 2004. FedSource awarded task order LOS013101 on
           September 30, 2004, for design, acquisition, engineering, program
           development, and database management support services. The task order
           award specified the period of performance to begin on September 30,

                                       63
          2004, and continue through November 30, 2005, 2 months beyond the
          12-month contract performance limitation. In addition, FedSource Los
          Angeles issued modification 1 on November 23, 2005, for a “no increased
          cost to the Government” extension until February 28, 2006, effective
          November 30, 2005. The task order exceeded the contract period of
          12 months for a severable contract. FY 2004 funds may have been used
          for the extension. Use of FY 2004 O&M funds to satisfy a FY 2006
          requirement does not meet the intent of the bona fide needs rule.

       57. Repair Underground Vaults in Parking Apron (Task Order
           LOS013406). The Naval Engineering Facilities Command, Southwest
           purchased services through FedSource to repair underground vaults in the
           parking apron. The Naval Engineering Facilities Command, Southwest
           issued MIPR MIPRN6923204MPX8223 for $177,000 on September 28,
           2004, using FY 2004 O&M funds. FedSource accepted the MIPR on
           September 28, 2004. However, the task order was not awarded until
           November 18, 2004. Use of FY 2004 O&M funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule.

       58. Utilities, Engineering, and Planning Support (Task Order
           LOS013139). The Naval Engineering Facilities Command, Southwest
           used FedSource to purchase management and engineering support services
           to satisfy the overall operational objectives of the Naval Engineering
           Facilities Command, Southwest Utilities and Planning Division. The
           Naval Engineering Facilities Command, Southwest issued MIPRs
           N6923204MPX8195 for $135,000 and N6923204MPX8196 for $31,000
           on September 17, 2004, citing FY 2004 O&M funds. FedSource accepted
           the MIPRs on September 22 and September 23, 2004. In addition, the
           Naval Engineering Facilities Command, Southwest issued MIPR
           N6923204MPX8206 for $153,000 and MIPR N6923204MP27139 for
           $20,000 on September 29, 2004, citing FY 2004 O&M funds. Task order
           LOS013139 was awarded on October 4, 2004, for $578,850. Use of
           FY 2004 O&M funds to satisfy FY 2005 requirements does not meet the
           intent of the bona fide needs rule.

Headquarters, Air Force Deputy Chief of Staff, Manpower
  and Personnel
       59. Family Child Care Public Awareness Campaign and Family Child
           Care Conference (Task Order STL002274). The Headquarters, Air
           Force Installation and Logistics Service is now the Headquarters, Deputy
           Chief of Staff Manpower and Personnel. The Headquarters, Deputy Chief
           of Staff, Manpower and Personnel issued MIPR NMIPR049209876 for
           $1,900,000 on September 13, 2004, using FY 2004 O&M funds, which
           expired on September 30, 2004. The Headquarters purchased a
           Comprehensive Public Awareness Campaign to heighten awareness
           among current and potential customers of the Extended Duty Child Care,
           Mildly Ill, Missile Care, Air National Guard and Air Force Reserve Home
           Community Care, Returning Home Care, and Family Child Care Subsidy
           programs. The funds were also for the 2005 Family Child Care
                                      64
   Conference to support families of deployed Air National Guard and
   Air Force Reserve members, tentatively scheduled for July 25–27, 2005.
   FedSource awarded the task order on September 22, 2004, for $1,027,640.
   Additionally, FedSource issued modification 3 on September 19, 2005, for
   a “no increased cost to the Government” extension until January 31, 2006,
   effective September 21, 2005. The contract was extended for a period
   beyond the 12-month contract period from the task order award date. Use
   of FY 2004 O&M funds to satisfy FY 2005 requirements does not meet
   the intent of the bona fide needs rule.

60. Boys and Girls Club of America (Task Order STL002277). The
    Headquarters, Deputy Chief of Staff, Manpower and Personnel issued
    MIPR NMIPR049209729 for $500,000 on August 16, 2004, using
    FY 2004 O&M funds, which expired September 30, 2004. The
    Headquarters purchased national affiliation fees for Boys and Girls Club
    of America for all participating Air Force youth centers for 2005 and for
    the annual national conference. FY 2004 funds were used to prepay
    FY 2005 fees and conference costs; additionally, the statement of work
    provided that conference costs would be incurred in 2005. FedSource
    awarded the task order on September 27, 2004, for $484,500. Use of
    FY 2004 O&M funds to satisfy FY 2005 requirements does not meet the
    intent of the bona fide needs rule.

61. Youth Fitness Activities and Kits (Task Order STL002276). The
    Headquarters, Deputy Chief of Staff, Manpower and Personnel issued
    MIPR NMIPR049209876 for $1,900,000 on September 13, 2004, using
    FY 2004 funds, and allocated $80,000 to task order STL002276. The
    MIPR funds expired on September 30, 2004. The MIPR funds were for
    professional services through FedSource for youth fitness activities and
    kits. FedSource awarded task order STL002276 for $82,620 on
    September 22, 2005, with a period of performance from September 23,
    2004 through September 22, 2005. However, the activity packets and
    sport kits were not received in FY 2004. Receipt of goods after the DoD
    appropriation expired could not be justified because of delivery time,
    production lead-time, or unforeseen delays. Use of FY 2004 O&M funds
    to satisfy a FY 2005 requirement does not meet the intent of the bona fide
    needs rule.

62. Entertainment (Task Order STL002433). The Headquarters, Deputy
    Chief of Staff, Manpower and Personnel acquired professional services
    through FedSource to purchase entertainment services, using MIPRs
    NMIPR049209768 for $260,000, issued August 24, 2004, and
    amendment 1 for $200,000, issued on September 9, 2004. They used
    FY 2004 O&M funds, which expired on September 30, 2004. FedSource
    issued task order contract STL002433 for $19,959 on September 8, 2004,
    to obtain quality, live, professional entertainment for the period from
    September 1, 2004, through September 1, 2005. The period of
    performance for the first task, Waking Norman, was scheduled to begin on
    October 21, 2004, and end November 11, 2004. Use of FY 2004 O&M
    funds to satisfy FY 2005 requirements does not meet the intent of the bona
    fide needs rule.

                                65
Air Force 452nd Air Mobility Wing
       63. Taxiway Repair (Task Order LOS014181). The March Air Reserve
           Base, 452nd Civil Engineers issued MIPR NG466443040031 for
           $2,997,000 to purchase taxiway widening and a runway repair at the base
           on September 30, 2004, using FY 2004 O&M funds, which expired on
           September 30, 2004. FedSource accepted the MIPR on September 30,
           2004. FedSource issued task order contract number LOS014181 for
           $1,188,042 on April 4, 2005, with a period of performance from
           December 1, 2004, through November 30, 2005. A contract has not been
           established for the runway. Use of FY 2004 funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule. In
           addition, use of O&M funds was improper for funding the runway and
           taxiway. The Air Force Reserve Command, Chief, Civil Engineering,
           452nd Mission Support Group approved funding for the two airfield
           projects and specifically approved $2,000,000 for the runway repair and
           $997,000 for the taxiway repair. The airfield projects should have been
           addressed as one project. Funding separately gives appearance of
           splitting projects to avoid use of military construction appropriated funds.
           The work contracted for on the task order was major construction and
           exceeded the $750,000 threshold for minor military construction;
           therefore, the military construction appropriations should have been used.
           The 452nd Civil Engineers used the incorrect appropriation.

Joint Personnel Recovery Agency
       64. Management Assistant (Task Order STL001373). The Joint Personnel
           Recovery Agency (JPRA) acquired services from FedSource to obtain a
           management assistant to support the Joint Experimentation and
           Interoperability Directorate within the JPRA. Both RDT&E and O&M
           funds were used to fund the services, under task order STL001373.
           FedSource initially issued the task order, STL001373, on June 7, 2004, for
           $33,972. The statement of work for the task order specified that a
           management assistant should be contracted to perform administrative and
           technical support, provide graphics and illustration support, maintain
           project plans and assessment schedules, and provide document and
           conduct file management support. These tasks should be funded with
           O&M funds. The JPRA issued four MIPRs to FedSource to fund this
           purchase of which three MIPRs cited RDT&E funds and one cited
           O&M funds. The first RD&TE MIPR was MIPR F1AF21494G001 for
           $192,000 issued on March 11, 2005. The next two RDT&E MIPRs were
           MIPR NMIPR049208779 and amendment 1, totaling $392,798, of which
           $79,017 in RDT&E funds was allocated to STL001373. The total of
           $125,954 allocated from the three MIPRs designated with RDT&E
           appropriated funds should have used O&M funds, not RDT&E funds.
           O&M funds should have been used to fund the entire task order contract.
           Therefore, JPRA used an incorrect appropriation.



                                        66
65. Analyst III for Urban Operations Project Support (Task Order
    STL001916). JPRA acquired professional services through FedSource
    for an analyst to conduct RD&TE tasks consisting of assessment
    operations project support experimentation, concept development, field
    testing, and research capabilities in the marketplace to fulfill program
    needs. JPRA issued five MIPRs to fund the purchase: four using
    RDT&E funds and one using O&M funds. JPRA allocated $201,040 from
    four RDT&E MIPRs to partially fund the purchase. FedSource issued the
    basic task order STL001916 for $78,568 on October 26, 2004, using
    RDT&E funds with a period of performance from November 1, 2004,
    through February 28, 2005. Contract modifications were used to extend
    the period of performance, but no modification was issued exercising an
    option period. JPRA issued MIPR F1A215273G0001 for $178,000 on
    September 30, 2005, using FY 2005 O&M funds, of which $48,747
    applied to the contract, even though the work was for RDT&E on urban
    operations project support. This MIPR funded award number 2,
    modification 2. The analyst worked on the task order the entire period of
    performance and the work remained the same for the entire task order.
    Task order STL001916, modification 6, for $47,863 issued November 1,
    2005, was used to fund award number 2, modification 2, for $48,747, and
    this contract action extended the period of performance to February 26,
    2006. This resulted in use of FY 2005 funds for FY 2006 work. Use of
    FY 2005 O&M funds to satisfy requirements in FY 2006 does not meet
    the intent of the bona fide needs rule. Additionally, the task order contract
    is for RDT&E work and use of O&M funds was inappropriate for the task
    order. RDT&E funds should have been used to continue work on the
    project. Therefore, JPRA used an incorrect appropriation.

66. Analyst for Project Support (Task Order STL001457). JPRA acquired
    services for program management support, which required an analyst to
    provide technical guidance on concept technical demonstrations, develop
    management plans for projects, maintain financial records, and provide
    project management functions. The MIPR NMIPR049208724 issued on
    May 5, 2004, for $196,980 did not contain a description or include a
    reference to a statement of work to provide a description that was specific,
    definite, and certain. Since no interagency agreement or a MIPR with a
    description exists to support the requirement, JPRA has a potential bona
    fide needs violation.

67. Analyst III (Task Order STL001972). JPRA used task order contract
    STL001972 for an analyst to perform RDT&E on the future combat
    survivor evader locator project. The statement of work provides that an
    analyst will perform subject matter expertise in development and
    integration of combat survivor evader locator capabilities to include
    RDT&E for future combat survivor evader locator capabilities. The
    project scope of work comprises RDT&E work. However, JPRA funded
    the project with both RDT&E and O&M funds. The first four of the five
    MIPRs issued to support task order contract STL001972 used RDT&E
    funds. The initial task order contract STL001972 for $51,414 was issued
    on December 15, 2004, for an analyst assigned to work combat survivor
    evader locator project support. JPRA sent MIPR F1AF215273G001 for

                                 67
          $178,000 on September 30, 2005, using FY 2005 O&M funds, and
          allocated $49,849 to task order STL001972 to extend of the period of
          performance through February 2006. The analyst scope of work remained
          the same throughout the task order and should have continued to be
          funded with RDT&E funds. Therefore, JPRA used an incorrect
          appropriation. Additionally, FY 2005 funds were used to support work to
          be performed in FY 2006. Partial funds from MIPR F1AF215273G0001
          were allocated to the task order to fund task order modification 2, issued
          on November 1, 2005. The contract modification was used to increase
          funds on the contract in the amount of $48,945 and extend the period of
          performance to February 28, 2006. Use of FY 2005 O&M funds to satisfy
          a FY 2006 requirement does not meet the intent of the bona fide needs
          rule.

       68. Analyst (Task Order STL001374). JPRA issued MIPR
           MIPR215273G001 for $178,000 on September 30, 2005, using FY 2005
           O&M funds to purchase analyst services for the Advanced Survivor
           Technology project support. JPRA also issued MIPR F1AF215068G001
           and amendments 1 and 2 to fund $71,485 on task STL001374 with
           O&M funds. The statement of work states that project support will focus
           primarily on the JPRA RDT&E future Advanced Survivor Technology
           capabilities. The task order contract scope of work is RDT&E. RDT&E
           funds should have been used instead of O&M funds. Therefore, JPRA
           used an incorrect appropriation. In addition, FY 2005 funds were used to
           support work that was clearly to be performed in FY 2006. The basic task
           order contract was issued on June 7, 2004, for $64,907, with a period of
           performance from June 5, 2004, through September 30, 2004.
           MIPRF1AF215273G001, issued on September 30, 2005, allocated
           $73,627 to task order STL001374, funded part of task order contract
           award number 3, modification 2 for $34,868 on November 1, 2005. This
           contract action extended the period of performance through January 31,
           2006. Use of FY 2005 O&M funds to satisfy a FY 2006 requirement does
           not meet the intent of the bona fide needs rule.

Washington Headquarters Services
       69. Applications Consultant (Task Order BAL118884). The Washington
           Headquarters Service purchased services through FedSource for an
           applications consultant. The Washington Headquarters Service issued
           Interagency Agreement DHIA 40362 for $13,000, citing FY 2004 funds.
           FedSource accepted the Interagency Agreement on September 29, 2004, in
           FY 2004; however, the task order contract was awarded on October 27,
           2004, for $11,944. Use of FY 2004 O&M funds to satisfy FY 2005
           requirements does not meet the intent of the bona fide needs rule.




                                      68
Appendix F. Potential ADA Violations That
            Occurred Primarily in FY 2006
   The following is a list of the 386 potential ADA violations we identified at DOI,
   the Department of the Treasury, NIH, and VA. Additional details regarding each
   potential ADA violation may be available in our reports addressing contracts and
   funding problems at DOI, the Department of the Treasury, NIH, and VA. See
   Appendixes D and E for previously identified potential ADA violations.




                                       69
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
General Counsel of the Department of Defense
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
U.S. Office of Personnel and Management
Department of the Interior, Inspector General
Department of the Treasury, Inspector General
General Services Administration, Inspector General
National Aeronautics and Space Administration, Inspector General
National Institutes of Health, Inspector General
U.S. Department of Veterans Affairs, Inspector General




                                          87
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      88
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       89
90
91
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Terry L. McKinney
Christine M. McIsaac
Bethany M. Thomas
Luke D. Penskar
Meredith H. Johnson
